<html>
<title> - EXPANDING ACCESS TO FEDERAL LANDS FOR PEOPLE WITH DISABILITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                          EXPANDING ACCESS TO
                           FEDERAL LANDS FOR
                       PEOPLE WITH DISABILITIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 24, 2008

                               __________

                           Serial No. 110-82

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-708 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington               Robert J. Wittman, Virginia
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 24, 2008..........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Bedwell, James S., Director, Recreation, Heritage, and 
      Volunteer Resources, Forest Service, U.S. Department of 
      Agriculture................................................     2
        Prepared statement of....................................     4
    Deal, Lew, USMC (Ret.), Director, Outdoor Programs and 
      Support Services, Robison International, Inc...............    35
        Prepared statement of....................................    37
    Fraser, Carole, Universal Access Coordinator, New York State 
      Department of Environmental Conservation, Division of Lands 
      and Forests................................................    10
        Prepared statement of....................................    11
    Little, William Lee, Founder, CEO, and President, BarZ 
      Adventures Inc.............................................    38
        Prepared statement of....................................    39
    Pearce, Philip, Chairman, Ad Hoc Committee on Outdoor 
      Developed Areas, U.S. Access Board.........................     6
        Prepared statement of....................................     8
    Ray, M. Tipton, Wilderness Inquiry, Inc......................    31
        Prepared statement of....................................    33
    Startzell, David N., Executive Director, Appalachian Trail 
      Conservancy................................................    43
        Prepared statement of....................................    45
    Whitesell, Steve, Associate Director, Park Planning, 
      Facilities, and Lands, National Park Service, U.S. 
      Department of the Interior.................................    13
        Prepared statement of....................................    14


  OVERSIGHT HEARING ON ``EXPANDING ACCESS TO FEDERAL LANDS FOR PEOPLE 
                         WITH   DISABILITIES''

                              ----------                              


                        Thursday, July 24, 2008

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Christensen, Holt, 
Duncan, Pearce, and Sali.

 STATEMENT OF THE HONORABLE RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you. Let me call the Committee to order 
for this oversight hearing, ``Expanding Access to Federal Lands 
for People with Disabilities.''
    As the Subcommittee comes to order, let me indicate that 
our colleague, Mr. Pearce, will be joining us shortly, and, at 
that time, if he has an opening comment, then that courtesy 
will be extended to him.
    I want to welcome our witnesses today, particularly those 
of you who have traveled on very short notice to be with us at 
this hearing.
    Today, we are examining the development and implementation 
of the Access Board's guidelines for improving access to 
outdoor developed areas managed by our Federal agencies. These 
agencies have a duty to provide a diversity of recreation 
opportunities for the widest cross-section of America, not only 
for persons with disabilities but also the elderly and 
underserved minorities. We want to make our public land 
visitors look like the rest of America.
    As we will hear from some of our witnesses, the development 
of these guidelines has been a long and not always straight 
trail, but we appear to be in the home stretch, and advances in 
universal design, new technologies, and new thinking are 
offering enormous possibilities for providing access to places 
and experiences once thought out of reach for persons with 
disabilities.
    We are looking forward to hearing from these witnesses 
today about expanding opportunities and the continuing 
challenges that we face, and, as I indicated, we will wait for 
the Ranking Member's remarks when he gets here, but let me 
welcome you and, at the outset, tell you that you have five 
minutes for your presentation. Your full statement will be made 
part of the record and any extraneous material that you wish to 
include in that as well.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    I want to welcome our witnesses today, particularly those of you 
who have traveled on very short notice to participate in this hearing.
    Today we will be examining the development and implementation of 
the Access Board's guidelines for improving access to outdoor developed 
areas managed by federal agencies.
    Those agencies have a duty to provide a diversity of recreation 
opportunities for the widest cross-section of America--not only the 
disabled, but also the elderly and underserved minorities. We want to 
make public lands visitors look like America.
    As we will hear from some of our witnesses, the development of 
these guidelines has been a long, and not always straight, trail.
    But we appear to be in the home stretch, and advances in universal 
design, new technologies and new thinking are offering enormous 
possibilities for providing access to places and experiences once 
thought out of reach for those with disabilities.
    We are looking forward to hearing about these expanding 
opportunities and the continuing challenges. With that, let me turn to 
our Ranking Minority Member for his remarks.
                                 ______
                                 
    Mr. Grijalva. Let me welcome our first panel and begin with 
Mr. James Bedwell, Director, Recreation, Heritage, and 
Volunteer Resources, Forest Service. Welcome, sir, and I look 
forward to your testimony.

STATEMENT OF JAMES S. BEDWELL, DIRECTOR, RECREATION, HERITAGE, 
            AND VOLUNTEER RESOURCES, FOREST SERVICE

    Mr. Bedwell. Thank you, Mr. Chairman and Members of the 
Subcommittee, for the opportunity to testify about our efforts 
to expand access to recreation opportunities on the National 
Forest System for all Americans, and, in particular, those with 
disabilities.
    While I am currently the director of recreation, long after 
graduating from the University of Arizona in 1979, I was the 
chief landscape architect of the Forest Service, with 
responsibility for the accessibility program from 1996 to 2000. 
I have with me the current Forest Service Accessibility Program 
Manager, Janet Zeller, as well as the agency's first 
Accessibility Program Manager, Joe Meade, now the forest 
supervisor of the Chugach National Forest in Alaska. With the 
Chairman's permission, I may direct questions, at the end of 
the panel, to either of them.
    With 193 million acres and more than 334 million recreation 
visits each year, the Forest Service provides the largest 
diversity of outdoor recreation opportunities in the country. 
The Forest Service strives to maximize accessibility without 
fundamentally altering outdoor recreational experiences of the 
natural environment. This approach is critical because while 
people of all abilities recreating on National Forests and 
grasslands may look for a large range of opportunities, from 
highly developed areas with paving and hot showers to remote 
areas where there are few or no visitor amenities, they all 
have one thing in common: They are there to experience the 
natural environment.
    The Forest Service has a long history of commitment to 
accessibility beyond that required by all of the applicable 
laws and regulations. For instance, we have had a policy of 
universal design, which is what we called it then, since 1993. 
This has meant that if the Forest Service builds it, 
accessibility will be integrated. One hundred percent of all 
facilities that are newly constructed or altered must be 
accessible and appropriate to the natural setting, a benefit 
for visitors of all abilities.
    Ten years ago, the Forest Service worked with the Access 
Board, along with other agencies and organizations, to develop 
the Access Board's draft guidelines for outdoor developed 
areas. I personally participated in that process with many 
others in the room on the Regulatory Negotiation Committee, and 
we all have a lot of memories of that.
    Ultimately, those draft guidelines would be published in 
2007 as the Access Board's Proposed Rule. However, in 2002, it 
became apparent that the Access Board's rulemaking process 
would be delayed, and the Forest Service, because of those 
hundreds of millions of visitors and lots of work going on, 
needed accessibility guidance for our agency that had been 
through a public comment process.
    We had the great advantage, in 2002, that we had the Access 
Board's draft guidelines to base ours on.
    In May of 2006, we finished our work and published in the 
Federal Register our final, revised Forest Service Policy 
Manuals, which direct the use of our accessibility guidelines 
for outdoor recreation areas and trails.
    In 2005, we developed a regulatory impact analysis that 
evaluated the previous 12 years of Forest Service facility 
construction. That analysis demonstrated that accessible 
facilities are cost effective while providing those benefits 
for all people.
    In our 15 years of focus on accessibility, the number of 
accessible facilities has increased every year as facilities 
are constructed or altered, and we apply all of our resources 
available toward improving accessibility. Each National Forest 
and grassland has outstanding examples of facilities and trails 
that are accessible and harmonize with the natural setting.
    We continue to work with the Access Board in a 
collaborative and complementary manner, sharing the details of 
what we have learned as we implement our Forest Service 
guidelines, and, based on our successful field implementation 
of our guidelines, it is clear that the Access Board's proposed 
guidelines for outdoor developed areas will also be effective. 
We are confident of that.
    In summary, the Forest Service is committed, through our 
policies and actions, to the continuous improvement of 
accessibility for all Americans. We are submitting our Forest 
Service Accessibility Guidebook on Outdoor Recreation and 
Trails for the record. We are really proud of this publication 
and its clear representation of the Forest Service 
accessibility guidelines, as well as its overview of our entire 
accessibility program. We would be glad to provide any member 
of the Subcommittee with a copy.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions you or any other Committee Members may 
have. Thank you.
    [The prepared statement of Mr. Bedwell follows:]

  Statement of James S. Bedwell, Director, Recreation, Heritage, and 
  Volunteer Resources, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on the Forest Service's ongoing 
efforts to expand access to recreational opportunities within the 
National Forest System for all Americans, and in particular those with 
disabilities.
    I am Jim Bedwell, Forest Service Director of Recreation, Heritage, 
and Volunteer Resources. From 1996 through 2000, while serving as the 
Chief Landscape Architect for the agency, I also managed the 
accessibility program. I have with me the current Forest Service 
Accessibility Program Manager, Janet Zeller, as well as the agency's 
first Accessibility Program Manager, Joe Meade, who is currently the 
Forest Supervisor of the Chugach National Forest in Alaska. With the 
Chairman's permission, I may direct questions to either of these 
individuals, if needed.
Background
    The Forest Service as steward of the nation's forests and 
grasslands values the contribution of all Americans, including those 
with disabilities. One of the first and early scientists and explorers 
to survey and chronicle the forests west of the 100th meridian was a 
single-armed Civil War veteran, John Wesley Powell. The journals of 
Major Powell, which Wallace Stegner, a Powell biographer, called ``the 
finest narrative exploration in all American literature,'' make clear 
that Major Powell never considered himself to be limited by his 
disability. Major Powell was wounded in the Civil War battle of Shiloh 
and later became the second director of the United States Geological 
Survey (USGS), which at the time had the responsibility for assessing 
and characterizing the forest resources of the Western United States, 
leading to the establishment of the Bureau of Forestry.
Accessibility Programs
    Today, there are an estimated 54 million U.S. residents with 
disabilities. Many of these folks maintain a life-long connection and 
affinity for the forests and rangelands that comprise the National 
Forest System. They enjoy the outdoor recreational opportunities these 
lands provide. To support that relationship with the land, 
accessibility must be integrated into planning and construction of 
trails and outdoor developed recreational facilities on National Forest 
System lands.
    We ensure that Forest Service programs and facilities are 
accessible, in compliance with the Architectural Barriers Act; Section 
504 of the Rehabilitation Act; and 7 CFR 15b and 15e, USDA's 
implementing regulations for Section 504 of the Rehabilitation Act. 
However, the Forest Service's commitment to accessibility goes beyond 
compliance with applicable law.
    The Forest Service has a long-term commitment to accessibility, as 
shown by the agency's strategic plan for recreation, which was 
implemented in 2003 and renewed through 2012. One of the goals of the 
strategic plan is improving the quality and availability of outdoor 
recreational experiences for all people, with and without disabilities. 
A key performance measure of that goal is the percentage of capacity at 
developed recreation sites that meets accessibility standards. 
Accessibility has also been incorporated into the Forest Service 
directive system.
    With 193 million acres of National Forest System lands receiving 
more than 334 million recreation visits each year, the Forest Service 
remains the largest provider of outdoor recreational opportunities in 
the country. We are the nation's backyard where the American people 
recreate. The Forest Service strives to maximize accessibility without 
fundamentally altering outdoor recreational experiences and the natural 
environment. This approach is critical because people recreating on 
national forest and national grasslands and on lands managed by other 
federal agencies are looking for a range of opportunities, from highly 
developed areas with paving and hot showers to remote areas where there 
are few or no visitor amenities.
    Outdoor recreation is about individual choice as to the type of 
opportunity, including the type of access, being sought by the 
recreationist. Land management agencies can help individuals locate 
areas that are easy to access, including those where motor vehicles can 
be used, to reach a wide range of recreational settings. Land 
management agencies also are able to direct visitors to more remote, 
non-motorized areas that are more difficult to access but offer greater 
solitude. There are locations that blend both of those experiences, 
easy access and a sense of remoteness, including locations where even a 
motor home can be driven. The Forest Service is deeply committed to 
preserving this range of options from which all visitors can choose the 
type of recreational experience they are seeking.
    To provide accessibility and to maintain the wide range of 
recreational opportunities from which all people can choose, the Forest 
Service since 1993 has incorporated universal design into the agency's 
recreation program. Universal design involves integrating accessibility 
into the design of recreational facilities to the extent appropriate to 
the natural setting, rather than constructing separate facilities for 
people with disabilities. All Forest Service recreational facilities 
that are newly constructed or altered must be appropriate to the 
setting and accessible. However, to implement this policy effectively, 
the Forest Service needed guidelines for its employees and cooperators.
    Ten years ago, the Forest Service worked with the Architectural and 
Transportation Barriers Compliance Board (Access Board), along with 
other agencies and organizations, to develop the Access Board's Draft 
Guidelines for Outdoor Developed Areas. I personally participated in 
that process with many others in this room, as a member of the Access 
Board's regulatory negotiation committee. Ultimately those draft 
guidelines were published in 2007 as the Access Board's proposed rule 
on accessibility at outdoor developed areas on federal lands.
    However, by 2002 it was clear that the Access Board's rule-making 
process would be delayed. We have hundreds of millions of visitors, 
some of whom have disabilities, and thousands of facilities that could 
benefit from improvement. In response to those needs, in 2002 the 
Forest Service began development of our own accessibility guidelines 
for outdoor developed areas and trails in the National Forest System, 
based on the Access Board's proposed guidelines and in coordination 
with the Access Board. In May 2006, the Forest Service issued the 
Forest Service Outdoor Recreation Accessibility Guidelines (FSORAG) and 
Forest Service Trail Accessibility Guidelines (FSTAG). We continue to 
collaborate with the Access Board on providing for accessibility at 
outdoor developed areas on federal lands, including sharing information 
regarding implementation of the Forest Service's accessibility 
guidelines.
    All new, altered or reconstructed facilities, including 
campgrounds, picnic areas, scenic overlooks, and the routes between 
them, must comply with the FSORAG. In addition to requiring that every 
building be accessible, the FSORAG requires all new picnic tables, fire 
rings, and camping units to be accessible. Toilet facilities must be 
accessible, regardless of whether they are a primitive facility on a 
trail or a facility serving visitors at a large campground, so that 
visitors choosing that type of recreational experience can use the 
facility provided, regardless of whether they have a disability.
    To assist Forest Service employees and cooperators with 
implementation of the Forest Service's accessibility guidelines, the 
agency has developed and distributed the Accessibility Guidebook on 
Outdoor Recreation and Trails to Forest Service administrative units 
and cooperators. In addition, we have integrated accessibility 
requirements into training courses for employees and cooperators.
    The FSORAG and FSTAG have enhanced accessibility at outdoor 
developed areas on National Forest System lands. Our visitors who use 
these outdoor recreational facilities have affirmed that. Results from 
the Forest Service National Visitor Use Monitoring Survey show that 79 
percent of National Forest System visitors state that they find Forest 
Service facilities to be accessible. Currently, 41 percent of Forest 
Service recreational buildings and 26.5 percent of Forest Service 
recreational sites are in full compliance with the Architectural 
Barriers Act Accessibility Guidelines and the FSORAG. As new facilities 
are constructed, altered, or reconstructed, those numbers will 
increase. In addition, all new or altered trails that meet the criteria 
for providing accessibility must comply with the FSTAG.
    Throughout the country and in every national forest and national 
grassland there are many examples of accessible developed recreation 
areas--including campgrounds, picnic areas, trailheads, and trails--
that demonstrate the Forest Service's commitment to universal design 
and ensuring access for all visitors. One outstanding example is the 
interpretive trail at the Ouachita National Historic Battlefield 
Visitor Center jointly managed by the Forest Service and National Park 
Service on the Black Kettle National Grasslands in Oklahoma. When 
construction is completed later this year, this interpretive trail will 
provide an opportunity for the Roger Mills County Historical Society 
and the local community to share their culture and history of the 
grasslands with visitors to battlefield. This trail will be fully 
accessible, so that all visitors will be able to enjoy the educational 
opportunity.
    The Recreation Site Improvement Program, which addresses deferred 
maintenance for developed recreation sites, incorporates accessibility 
into the work performed under the program. Facilities at developed 
recreation sites are being modified or replaced to ensure accommodation 
for all users. Currently, 344 toilets, 82 drinking water systems, 1,584 
picnic tables, 894 fire rings, and 441 other buildings are approved, 
funded, or scheduled to be modified for accessibility in accordance 
with the FSORAG.
    The FSORAG and FSTAG and the Access Board's guidelines for outdoor 
developed areas are unique in that they are designed to maximize 
accessibility while maintaining the natural setting, thereby avoiding 
overdevelopment and otherwise undermining the experience of the natural 
environment all of our visitors expect from the national forests and 
national grasslands. Under this approach, a wide range of recreational 
opportunities is preserved for all people.
    In the 15 years since the Forest Service implemented its policy of 
universal design, requiring every constructed or altered facility to be 
accessible, we have found the difference in cost to be negligible. Some 
of our visitors prefer the design and ease of use of accessible 
facilities and elements, even if they do not have a disability.
    Over the last several years, the Santa Fe National Forest in 
northern New Mexico has worked hard to make its recreational areas more 
accessible. Like all national forests and national grasslands, the 
Santa Fe National Forest has a number of campgrounds and picnic grounds 
that were built decades ago and that are dearly loved by 
recreationists, but that do not comply with the FSORAG. In the last ten 
years, the Santa Fe National Forest, through the Capital Investment 
Program funded by Congress, has invested over $5 million in 
reconstructing and upgrading its developed recreation sites. This 
investment has resulted in accessible fishing, picnicking, and camping 
opportunities at Lower Jemez Recreation Complex and Las Conchas Fishing 
Access; accessible family and group picnicking at Battleship Rock 
Picnic Ground near the Valles Caldera National Preserve; accessible 
family and group camping at the Paliza Campgrounds; and accessible 
camping at Black Canyon Campground, located only seven miles northeast 
of New Mexico's capital, Santa Fe.
    People often ask me, ``Well, universal design sounds good, but 
doesn't it cost a lot more?'' The reality is, and the economic analyses 
we did for the Access Board regarding the costs of implementing the 
Board's proposed rule supports this conclusion, when accessibility is 
incorporated into the design of a facility from the beginning, the 
costs associated strictly with accessibility are a negligible 
percentage of the overall costs of the project. Providing for 
accessibility only gets prohibitively expensive when it is not 
considered and incorporated into the early design and construction 
phases and the project has to be retrofitted. All visitors to federal 
lands, regardless of their ability, can enjoy facilities that are 
accessible. As I tell our employees and cooperators, making new, 
altered, or reconstructed Forest Service facilities accessible is not 
just the law, it makes good sense programmatically.
    The Forest Service's accessibility guidelines, which are based on 
the Access Board's draft guidelines, work well. They are cost-effective 
and protect the natural environment, thereby allowing all people, with 
and without disabilities, to recreate together in the setting they 
choose.
    The Forest Service has demonstrated its commitment through its 
policies and actions at all levels of the agency to the continuous 
improvement of accessibility for all Americans. We are submitting the 
Forest Service Accessibility Guidebook on Outdoor Recreation and Trails 
for the record, as it graphically depicts the Forest Service's 
accessibility guidelines, as well as provides an overview of the Forest 
Service's accessibility program. We would also be glad to provide any 
member of the Subcommittee with a copy.
    This concludes my testimony. I would be happy to answer any 
questions you or other committee members may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me acknowledge my 
fondness for the University of Arizona that you graduated from.
    Mr. Bedwell. Yes.
    Mr. Grijalva. Being alumni, we are a rare breed.
    If I may, now let me turn to Mr. Philip Pearce, Access 
Board Member and a Public Member. Sir, your comments?

   STATEMENT OF PHILIP PEARCE, CHAIRMAN, AD HOC COMMITTEE ON 
           OUTDOOR DEVELOPED AREAS, U.S. ACCESS BOARD

    Mr. Pearce. Thank you, Mr. Chairman. Good morning. I am 
pleased to present testimony on behalf of the Architectural and 
Transportation Barriers Compliance Board, better known as the 
``U.S. Access Board.'' I am Philip Pearce, a public member from 
College Station, Texas, and Chairman of the Board's Ad Hoc 
Committee on Outdoor Developed Areas. Accompanying me today are 
Bill Botten, an accessibility specialist and a staff member 
with the Access Board assigned specifically to the outdoor 
developed areas guidelines, and also several other members of 
the Access Board and staff that are here in the audience.
    We are pleased to come before the Subcommittee to update 
you on the progress of the board's guidelines for outdoor 
developed areas. From our early efforts to enforce the 
Architectural Barriers Act of 1968 to our ongoing efforts to 
write accessibility guidelines, under the Americans with 
Disabilities Act, the Access Board's objective has always been 
the same: To improve access for persons with disabilities 
throughout our nation.
    The Access Board, the National Park Service, U.S. Forest 
Service, and other Federal land-management agencies have a long 
history of working together to improve access. These agencies 
have provided invaluable input to our efforts to make outdoor 
developed areas more accessible to persons with disabilities. 
The Department of the Interior is a member of the U.S. Access 
Board.
    Staff from the Access Board and our Federal partners are 
continually collaborating on ways to make public lands more 
accessible. Access Board members and staff have visited several 
National Parks, forests, and beaches to gain firsthand 
knowledge of the unique challenges of providing access in this 
dynamic environment.
    Now, let me address our current rulemaking for outdoor 
developed areas. When we use the term ``outdoor developed 
areas,'' we are talking about trails, beach access routes, 
camping, and picnic areas. The Access Board acknowledges that 
these areas are often very unique and that, ultimately, our 
accessibility guidelines must strike a fine balance between the 
need to provide access for persons with disabilities, protect 
the natural environment, preserve historic structures, and take 
into account feasibility.
    As the board has worked its way through the many issues 
surrounding access to outdoor developed areas, we have sought 
to promote thoughtful deliberation among all affected parties.
    In July of 1993, the board convened a Recreation Access 
Advisory Committee. In the following year, their report became 
the basis of an Advance Notice of Proposed Rulemaking. The 
comments we received from the advance notice revealed that 
there was a lack of consensus on several issues, including how 
to make trails accessible.
    Consequently, the board formed a regulatory negotiation 
committee to resolve the issues. The regulatory negotiation 
committee met for two years and produced a consensus report 
that is the basis for the accessibility requirements for 
outdoor developed areas. This report formed the basis for the 
board's Notice of Proposed Rulemaking, which was published in 
the Federal Register in June of 2007 for public comment.
    The Access Board's original rulemaking plan called for 
issuing a proposed rule, under both the Americans with 
Disabilities Act for public accommodations and for state and 
local entities and the Architectural Barriers Act for Federal 
agencies. However, the board decided to proceed more 
methodically.
    The 2007 proposed rule was issued, based solely on our 
rulemaking authority under the Architectural Barriers Act. The 
proposed rule addressed outdoor developed areas that are 
designed, built, or altered by Federal agencies.
    The board decided to limit this rulemaking initially to 
facilities covered by the Architectural Barriers Act in order 
to gain a better understanding of the rule's impact on Federal 
parks, forests, and seashores prior to making the provisions 
applicable to outdoor developed areas in the private sector and 
for state and local governments covered by the Americans with 
Disabilities Act.
    Let me give you two examples of key provisions that were 
included in the proposed rule. The trail guidelines are based 
on an exception approach. For example, when designing a trail, 
a designer should assume it to be fully accessible. When unique 
conditions, such as extreme terrain or environmental issues are 
present, departures from the technical provisions are 
permitted. After the condition is no longer present, the 
technical provisions are again applied.
    Another key provision in the trails section is the 
requirement for signage is provided. Information such as 
running slope, cross-slopes, trail width, and the type of 
surface a user can expect is helpful to the users. Providing 
standard information to enable all users, and especially 
persons with disabilities, the opportunity to choose 
appropriate hikes for their skill and ability level is 
important.
    I am going to skip some of my text and go right to the end 
of it and wrap up since I am about out of time.
    As we traveled the country, the board has been pleased to 
learn that many state and local governments and some private 
sector entities have already begun to use portions of the 
proposed rule to increase access for persons with disabilities.
    We believe that rulemaking on outdoor developed areas will 
better assist in creating and enhancing outdoor recreation 
experiences for persons with disabilities.
    Thank you for the opportunity to testify before you, and I 
would be happy to answer any questions you may have.
    [The prepared statement of Mr. Philip Pearce follows:]

      Statement of Philip Pearce, Public Member, U.S. Access Board

    Thank you Mr. Chairman. Good morning. I am pleased to present 
testimony on behalf of the Architectural and Transportation Barriers 
Compliance Board--better known as the Access Board. I am Philip Pearce, 
a public member from College Station, TX and the chairman of the 
Board's ad hoc committee on Outdoor Developed Areas. Accompanying me 
today are Bill Botten, an Accessibility Specialist and James Raggio, 
the Board's General Counsel.
    We are pleased to come before the subcommittee to update you on the 
progress of the Board's guidelines for Outdoor Developed Areas. From 
our early efforts to enforce the Architectural Barriers Act of 1968 to 
our on-going efforts to write accessibility guidelines under the 
Americans with Disabilities Act, the Access Board's objective has 
always been the same: to improve access for persons with disabilities 
throughout our nation.
    The Access Board, the National Park Service, U.S. Forest Service, 
and the other federal land management agencies have a long history of 
working together to improve access. These agencies have provided 
invaluable input to our efforts to make outdoor developed areas more 
accessible to persons with disabilities. The Department of the Interior 
is a member of the Access Board. Staff from the Access Board and our 
federal partners are continually collaborating on ways to make public 
lands more accessible. Access Board members and staff have visited 
several national parks, forests, and beaches to gain first hand 
knowledge of the unique challenges of providing access in this dynamic 
environment.
    Now, let me address our current rulemaking for outdoor developed 
areas. When we use the term ``outdoor developed areas'' we are 
referring to facilities such as trails, beach access routes, and 
camping and picnic areas. The Access Board acknowledges that these 
areas are often very unique and that ultimately our accessibility 
guidelines must strike a fine balance between the need to provide 
access to persons with disabilities, protect the natural environment, 
preserve historic structures, and take into account feasibility.
    As the Board has worked its way through the many issues surrounding 
access to outdoor developed areas, we have sought to promote thoughtful 
deliberation among all affected parties. In July 1993, the Board 
convened a Recreation Access Advisory Committee, and the following year 
their report became the basis of an Advance Notice of Proposed 
Rulemaking. The comments we received from the Advance Notice revealed 
that there was a lack of consensus on several issues including how to 
make trails accessible.
    Consequently, the Access Board formed a regulatory negotiation 
committee to resolve the issues. The regulatory negotiation committee 
met for two years and produced a consensus based report on 
recommendations for accessibility requirements for a variety of outdoor 
developed areas. This report formed the basis of the Board's Notice of 
Proposed Rulemaking which was published in the Federal Register in June 
2007 for public comment.
    The Access Board's original rulemaking plan called for issuing a 
proposed rule under both the Americans with Disabilities Act (for 
public accommodations and state and local governmental entities) and 
the Architectural Barriers Act (for federal agencies). However, the 
Board decided to proceed more methodically. The 2007 proposed rule was 
issued based solely on our rulemaking authority under the Architectural 
Barriers Act. The proposed rule addressed outdoor developed areas that 
are designed, built, or altered by federal agencies. The Board decided 
to limit this rulemaking initially to facilities covered by the 
Architectural Barriers Act in order to gain a better understanding of 
the rule's impact on federal parks, forests, and seashores prior to 
making the provisions applicable to outdoor developed areas in the 
private sector and for state and local governments covered by the 
Americans with Disabilities Act.
    Let me give you two examples of key provisions that were included 
in the proposed rule. The trail guidelines are based on an ``exception 
approach''. For example, when designing a trail, a designer should 
assume it can be fully accessible. When unique conditions such as 
extreme terrain or environmental issues are present, departures from 
the technical provisions are permitted. After the condition is no 
longer present, the technical provisions are again applied.
    Another key provision in the trails section is the requirement when 
signage is provided. Information such as running slope, cross slope, 
trail width and the type of surface a user can expect is helpful for 
users. Providing standardized information will enable all users and 
especially persons with disabilities the opportunity to choose 
appropriate hikes for their ability and skill level. Providing just the 
``wheelchair symbol'' (the International Symbol of Accessibility) may 
not convey enough information in this situation. This topic generated 
significant comment in the proposed rule.
    The Board held three public hearings on the proposed guidelines in 
Denver, Washington, DC, and Indianapolis and heard from 40 witnesses. 
In addition, written comments were received from more than 80 
organizations, agencies, and individuals. We are pleased with the wide 
variety of comments and general support for the proposed rule that has 
been received. While we are still in the process of considering the 
comments and drafting the final rule, I can share the following 
observations.
    Commenters have pointed to the strong need for the guidelines, 
encouraged the Board to promptly complete this rulemaking, and to 
follow-up with similar guidelines for non-federal entities. Commenters 
also urged the Board to develop supplementary technical assistance and 
training materials to assist individuals in using the final guidelines.
    Board staff and I have met several times with our federal partners 
since the comment period closed to discuss many of the issues 
identified through public comment. Staff has begun drafting provisions 
for a final rule. The final rule is being written applying ``plain 
language'' concepts so that it is easy to read and understood. Once the 
final rule is completed, we intend to develop similar proposals for the 
private sector and state and local governmental agencies covered by the 
Americans with Disabilities Act.
    As we have traveled the country, the Board has been pleased to 
learn that many state and local governments and some private sector 
entities have already begun to use portions of the proposed rule to 
increase access for persons with disabilities. We believe that the 
rulemaking on outdoor developed areas will better assist in creating 
and enhancing outdoor recreational opportunities for persons with 
disabilities. The Access Board plans to submit a final rule along with 
a regulatory assessment to the Office of Management and Budget in the 
spring of 2009. Thank you for the opportunity to testify before you 
today, and I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Let me ask our Ranking Member, Mr. Pearce, if he has any 
comments as we proceed with this panel.
    Mr. Pearce of New Mexico. Thank you, Mr. Chairman. I guess 
these would be in the nature of halftime questions, just 
recognizing my brother, Philip. We both went to Hobbs High in 
New Mexico. He actually graduated, so I hope to look at his 
testimony, and thanks again for having this hearing, Mr. 
Chairman.
    Mr. Grijalva. Thank you, sir.
    Ms. Carole Fraser, Universal Access Coordinator, New York 
State Department of Environmental Conservation, Division of 
Lands and Forests, welcome. I look forward to your testimony.

 STATEMENT OF CAROLE FRASER, UNIVERSAL ACCESS COORDINATOR, NEW 
 YORK STATE DEPARTMENT OF ENVIRONMENTAL CONSERVATION, DIVISION 
                      OF LANDS AND FORESTS

    Ms. Fraser. Good morning, Mr. Chairman and Members of the 
Subcommittee. Thank you for the opportunity to testify before 
you today to share New York's experience with implementing the 
accessibility guidelines for outdoor developed areas.
    My name is Carole Fraser. I am the Universal Access 
Coordinator for the New York State Department of Environmental 
Conservation. The Department of Environmental Conservation 
administers jurisdiction over 4.5 million acres of state land. 
Our Universal Access program was born in 2001 in response to a 
lawsuit brought under the Americans with Disabilities Act by 
individuals seeking motorized access in our forest preserve.
    A settlement was reached when the DEC offered a list of 185 
diverse projects that, when constructed, would offer 
accessibility to programs such as camping, fishing, canoeing, 
hunting, boating, picnicking, horseback riding, and bird-
watching. These projects and dozens of others across our state 
were constructed using the guidelines put forth by the Access 
Board's 1999 Regulatory Negotiation Committee for Outdoor 
Developed Areas.
    In general, our experience in New York with the use of the 
Access Board's minimum guidelines has been a positive one. As 
an agency whose statutorily defined mission is to protect and 
preserve the natural areas of the state, we found the 
guidelines provided adequate protection while maximizing 
accessibility. The response from the public has been 
overwhelmingly positive.
    The success of our program stems from a commitment to 
training our staff, working with an advisory committee that 
consists of recreationists with disabilities, and the outreach 
to educate the public that continues to be our priority.
    Based on our experience, there are a few areas where we 
routinely designed beyond what the guidelines were suggesting. 
The first is beach access, where we provide at least a 60-inch 
width of firm and stable surface. We have found that once a mat 
or pathway is established across a beach, many people choose to 
use the pathway, and a 36-inch width is too narrow. However, 
there should be an exemption to allow a more narrow width if 
dunes or other natural resources would be impacted by the 60-
inch width. Also, the three-inch edge protection on tent 
platforms could create a difficulty for wheelchair users to 
transfer.
    We suggest that an area be kept free of edge protection for 
the option of transfer. In addition, we recommend that the 
conditions for departure for trails also apply to outdoor 
recreation routes in backcountry areas especially.
    In conclusion, we applaud the work of the Access Board for 
helping to develop these important guidelines which serve to 
create accessibility and protect the natural resource, thereby 
preserving the fundamental experience for all. Our goal 
continues to be to provide a balanced approach to accessibility 
and provide people with as many choices as possible while 
protecting the natural character that people seek in exploring 
the great outdoors. Thank you.
    [The prepared statement of Ms. Fraser follows:]

  Statement of Carole Fraser, Universal Access Coordinator, New York 
 State Department of Environmental Conservation, Division of Lands and 
                       Forests, Albany, New York

    Good morning Chairman Grijalva, Ranking Member Bishop and members 
of the Subcommittee on National Parks, Forest and Public Lands. Thank 
you for the opportunity to testify before your Subcommittee today.
    My name is Carole Fraser. I am the Universal Access Coordinator for 
the New York State Department of Environmental Conservation. This 
testimony addresses the Department's experience in creating a large 
number of accessibility projects in the outdoor environment over the 
past several years and the factors that maintain our successful 
program.
    The Department of Environmental Conservation (DEC) administers 
jurisdiction over 4.5 million acres of state land. A majority of the 
state land in the Adirondack and Catskill mountain regions is 
designated as Forest Preserve and as such and is afforded the highest 
level of protection under Article IV of our State Constitution. Forest 
Preserve lands are protected as ``forever wild'' and public use is 
clearly delineated according to land classifications from Wilderness 
and Wild Forest to Intensive Use areas.
    In 1997, a lawsuit was brought under the Americans With 
Disabilities Act by individuals seeking motorized access to areas in 
our Adirondack Forest Preserve (Galusha v. NYS DEC et al., Civil Action 
No. 98-CV-1117). In 2001, a settlement was reached when the DEC offered 
a list of 185 diverse projects, at a cost of 4.8 million dollars, that 
when constructed would offer accessibility to programs such as camping, 
fishing, canoeing, hunting, boating, picnicking, horseback riding and 
birdwatching. These projects, and dozens of others across our state, 
were constructed using the guidelines put forth by the Access Board's 
1999 Regulatory Negotiation Committee for Outdoor Developed Areas 
hereinafter referred to as the ``Guidelines''.
    The settlement contained several other mandates: the designation of 
a full-time Statewide Coordinator for Access Issues; one staff person 
to act as Access Coordinator in each of our nine regions, who would 
deal with access issues in addition to their daily responsibilities; a 
commitment to training staff and vendors of services in the Forest 
Preserve; the creation of an advisory committee; and education and 
outreach to the public.
    In general, our experience in New York with the use of the Access 
Board's minimum guidelines has been a positive one. As an agency whose 
statutorily defined and paramount mission is to protect and preserve 
the natural areas of the state, we found that the Guidelines provided 
adequate protection while maximizing accessibility. The defined 
``conditions for departure'' which are included for trails worked well 
in establishing parameters to preserve important features and the 
natural setting. Nearly all of the projects named in our settlement 
were designed and constructed using the Guidelines and the response 
from the public has been overwhelmingly positive.
    We did face some challenges in creating access in some areas of our 
Forest Preserve, where our construction materials were limited to the 
use of natural materials such as wood and stone. Also, there were areas 
where we found a need to go beyond what the Guidelines were suggesting 
to provide meaningful access. One of those areas is beach access where 
we provide at least a 60 inch width of firm and stable surface. We have 
found that once a mat or pathway is established across a beach many 
people choose to use the pathway and a 36 inch width is too narrow. 
Also, the wider path allows people to walk or roll abreast and provides 
passage for two people using wheelchairs for mobility. That being said, 
if dunes or any other natural resources, would be impacted by the 60 
inch width, there should be an exemption to go down to a more narrow 
width.
    Another area where we found a user conflict was in the 3 inch edge 
protection that the Guidelines state should encompass the tent 
platforms. People have found that the edge protection made transfer 
from a wheelchair difficult. Our suggestion is that an area be kept 
free of edge protection for the option of transfer.
    In addition, we found it difficult in some backcountry areas to 
follow the recommendations for Outdoor Recreation Access Routes when 
providing access to a waterway or body of water as the slope can be 
steep to the shoreline. Even with switchbacks, in some cases the best 
we could do to minimize the slope more closely resembled the Guidelines 
that are designed for trails. Therefore, we recommend that the 
conditions for departure for trails also apply to Outdoor Recreation 
Access Routes in back country areas.
    The DEC developed our own accessible designs for a number of 
outdoor recreation elements that were not included in the Guidelines 
such as equestrian mounting platforms, informational kiosks, trail 
registers and hunting blinds.
    Some areas that continue to challenge us are finding the proper 
recipe for creating a firm and stable surface using natural materials. 
While we appreciate that the Guidelines remain neutral on the type of 
materials that may be used to create a firm and stable surface, 
guidance would be beneficial. For example, a crushed limestone and 
stone dust mixture works well on trails but may not be the proper 
surface for a campsite if it prevents a tent stake from penetrating the 
surface.
    It has been important for us to keep our visitors informed of what 
they will or may encounter when visiting our back county areas. Sites 
that have been assessed for accessibility may contain a section of 
steeper slope for example than what may be expected. Our approach is to 
measure the slope and distance that it occurs for inclusion on our 
website and written information on the site. The Universal Trail 
Assessment Process, a standardized process for measuring trail 
conditions, has been a useful tool in providing information to people 
so that they can make their own choices based on their abilities.
    The success of our program stems from several factors. First and 
foremost is a commitment to training. Many Department staff have 
received and continue to receive training in Disability Awareness. This 
provides an understanding of the need for universal access to our 
programs and services. Field staff take pride in the accessibility 
projects and continue to think about inclusion instead of looking at 
access as an unfunded mandate. Training on the Guidelines for outdoor 
developed areas was provided by the Access Board, the National Center 
on Accessibility, and the Northeast Disability and Business 
Technology--ADA Center. This specific training was essential to staff 
understanding and properly implementing the Guidelines. Training 
opportunities on the above mentioned topics as well as various others 
including Universal Design, the Americans with Disabilities Act and the 
Universal Trail Assessment Process were opened to staff from other 
state agencies, Independent Living Centers, local governments, colleges 
and not-for-profits to enable networking that keeps us all learning 
from each other and motivated to make outdoor areas accessible to 
everyone.
    Second, we work closely and regularly with an informed group of 
individuals with various types of disabilities to guide our decisions 
relating to access to public programs. We value opportunities to 
provide direct outreach through presentations and exhibits at 
conferences, workshops and meetings with organizations that serve 
people with disabilities to promote our accessible areas and invite 
their feedback. Similarly, we reach out to trail groups, recreational 
therapists and other recreation businesses and organizations to share 
what we have learned about creating access in the outdoor environment 
and promote inclusive outdoor recreation in general.
    Finally, we run several programs each year that introduce people 
with and without disabilities to our recreation opportunities, through 
ribbon-cutting celebrations and ``open houses'' at specific sites, 
events with adaptive equipment for use and by community-building 
disability awareness days featuring scavenger hunts, wildlife 
demonstrations, and inclusive exhibits of many kinds.
    In conclusion, what we have learned through implementing the 
guidelines for outdoor areas is that it is possible to create 
accessibility and protect the resource at the same time thereby 
preserving the fundamental experience for all. The Guidelines parallel 
our goals to strive for the ``minimal tool approach'' that blends these 
projects into the natural environment and protects the landscapes. We 
applaud the work of the Access Board in developing these important 
guidelines. Our goal continues to be to provide a balanced approach to 
accessibility, both geographic and programmatic, to provide people with 
as many choices as possible while protecting the natural character that 
people seek in exploring the great outdoors.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    I now ask Mr. Stephen Whitesell, National Park Service, for 
your comments and your testimony and welcome.

  STATEMENT OF STEPHEN E. WHITESELL, ASSOCIATE DIRECTOR, PARK 
     PLANNING, FACILITIES, AND LANDS, NATIONAL PARK SERVICE

    Mr. Whitesell. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to provide an update on the 
status of expanding access to Federal lands managed by the 
Department of the Interior for people with disabilities.
    We also welcome the opportunity to provide general comments 
on the U.S. Access Board proposed rule for accessibility 
guidelines for outdoor developed areas.
    Accompanying me today are representatives from the U.S. 
Fish and Wildlife Service, the Bureau of Land Management, and 
the Bureau of Reclamation, who can answer specific questions 
about accessibility programs and initiatives in those bureaus.
    On May 11, 2006, we were pleased to be able to participate 
in a hearing before this Subcommittee where we highlighted 
Director's Order No. 42 that directed the National Park Service 
managers to provide the highest level of access practical while 
ensuring consistency with our other legal mandates for 
conservation and protection of the resources that we manage.
    Today, our goal remains the same. I would like to highlight 
a few examples of initiatives and projects within the 
Department of the Interior that have improved access to Federal 
lands by people with disabilities.
    At the Chesapeake & Ohio Canal National Historical Park, 
the National Park Service completed the development of a new, 
universally accessible canal boat, which provides easy access 
to the entry level, an inclined lift to provide access for 
wheelchair users to the upper deck, and accessible restroom 
facilities.
    It also addressed the need of individuals with hearing 
limitations through the installation of a state-of-the-art 
sound system that distributes high-quality sound equally to all 
areas of the boat. It is estimated that the new design with the 
accessibility features will enable an additional 2,000 
individuals with mobility limitations per year to participate 
in this experience.
    The National Park Service has also launched a new website 
that provides information to aid visitors with disabilities and 
special needs to be able to find accessible trails, programs, 
and activities and other features at National Park units 
nationwide.
    The U.S. Fish and Wildlife Service's Visitor Facility 
Enhancement construction program funds small-scale, outdoor 
projects, such as accessible boardwalks, fishing piers, hunting 
blinds, and kiosks that allow visitors to get closer to our 
natural world. Since the program's inception in 2003, hundreds 
of projects have been completed using these funds, and, each 
year, the Fish and Wildlife Service considers accessibility as 
a major factor in selecting new projects to fund.
    Toward the goal of ensuring everyone has an equal 
opportunity to participate and benefit from its programs and 
facilities, the Bureau of Land Management conducted 
comprehensive accessibility evaluations of its recreation 
facilities and spent over $3 million to implement over 100 
projects to correct deficiencies.
    In Utah, the BLM completed a project to make Takeout Beach 
on the Colorado River more accessible to disabled boaters. The 
newly installed, accessible walkway system, shelter, toilets, 
and loading area greatly facilitate exiting the river by 
persons of all abilities. A local group of boaters with 
disabilities volunteered many hours of assistance in making 
that project come to pass.
    Since 1998, the Bureau of Reclamation has worked, both 
internally and with its partners, to make priority recreation 
sites accessible to visitors with disabilities.
    For example, in 2006, at Grand Coulee Dam in Washington 
State, the Bureau of Reclamation opened a newly renovated 
building to house the visitor center that attempted to remove 
all barriers within the building, structure, exhibits, and 
programs.
    The final topic I would like to touch upon is the 
Department's response to the U.S. Access Board Notice of 
Proposed Rulemaking for Accessibility Guidelines for Outdoor 
Developed Areas. The Department requested its bureaus to review 
the proposed rule and provide comments. In general, all of the 
Interior agencies were very supportive of the recommendations 
made in the proposed rule.
    The Department has been very actively involved in the 
regulatory negotiating committee that developed the majority of 
the proposed rule, and each bureau has utilized the 
recommendations from the report as guidance for the design and 
construction of accessible trails, campgrounds, and picnic 
areas for the past several years.
    Because of its value to our bureaus, the Department 
encourages the Access Board to expedite the completion of the 
final rule.
    In closing, the Department is dedicated to providing the 
highest level of access that is practical and is in conformance 
with the appropriate legal mandates and department-wide and 
bureau-wide policies. We have made a great deal of progress 
toward enhancing the quality of each bureau's accessibility 
programs, and we will continue to build upon our recent 
achievements in the months and years to come.
    Thank you for the opportunity to testify on this important 
topic. This concludes my prepared remarks, but I would be glad 
to answer any questions that the Members may have.
    [The prepared statement of Mr. Whitesell follows:]

   Statement of Steve Whitesell, Associate Director, Park Planning, 
 Facilities, and Lands, National Park Service, U.S. Department of the 
                                Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide an update on the status of expanding access to 
federal lands for people with disabilities in the National Park System. 
We are pleased to discuss the status of the National Park Service (NPS) 
Accessibility Management Program, the goals and objectives of our 
program, the accomplishments that we have made over the past several 
years, and the initiatives that we have underway to ensure continued 
success going forward. My statement will also highlight some ongoing 
efforts to expand access for people with disabilities by our sister 
agencies within the Department of the Interior.
Introduction and Background
    On May 11, 2006, we were pleased to be able to participate in a 
hearing before this subcommittee to discuss the status of our efforts 
to address accessibility for individuals with disabilities in the 
National Park System. At that hearing, we highlighted Director's Order 
#42, entitled Accessibility for Visitors with Disabilities in National 
Park Service Programs and Services. The order directs the NPS to 
provide the highest level of access practicable, ``while ensuring 
consistency with our other legal mandates for conservation and 
protection of the resources we manage.'' We believe that the essence of 
this goal is to ensure that the Nation's 54 million citizens with 
disabilities have the same opportunities to visit and experience the 
wonders of the National Park System that is afforded to all other 
citizens.
    Over the past several years, the NPS has charged each 
superintendent with evaluating their facilities and programs to 
determine the level of access and to take actions on an annual basis, 
utilizing appropriated funds, fee revenues and other funds available to 
the parks to make required modifications. We have also established an 
extensive program to provide technical assistance and continuing 
education in order to assist the park staff in better understanding the 
legal requirements, and the methods and techniques for ensuring that 
corrections are made appropriately. Under this approach, every park in 
the National Park System has made progress in identifying and 
correcting deficiencies. Despite significant progress, the NPS 
recognizes that a number of opportunities exist to build upon these 
recent achievements.
Accomplishments over the Past Two Years
    Since the previous hearing in May 2006, we have continued our 
efforts to improve access and have made significant advances. We are 
pleased to provide a brief summary of our major accomplishments since 
that time.
    First, in an effort to increase awareness of the importance of 
accessibility throughout the NPS, the Director issued a memorandum to 
all parks and park staff on October 24, 2006 concerning disability 
access in the NPS. That memorandum informed the staff of the outcome of 
the congressional hearing, reminded the staff of our legal obligations 
and policy directions, and outlined specific directions for continued 
progress. Those directions included: ensuring that all newly 
constructed assets are designed and constructed in compliance with the 
appropriate standards or guidelines; ensuring that all rehabilitation 
and renovation projects incorporate accessibility corrections to the 
highest degree practicable; ensuring that all interpretive programs, 
services and opportunities are provided in such a way as to make them 
accessible to all individuals with disabilities; and ensuring that 
appropriate staff receives the necessary continuing education and 
technical assistance to enable them to better meet the needs of 
citizens with disabilities.
    Second, in an effort to increase awareness among park managers, the 
NPS planned and delivered a satellite broadcast training program 
directed at superintendents, division chiefs and other park managers. 
The program was entitled ``The Status of Disability Access in the NPS: 
From Rhetoric to Reality''. Led by the Deputy Director of the NPS, the 
program focused on the legal requirements for access, the standards 
that must be followed, and areas for improvement. Over 200 people from 
over 150 parks participated in the program.
    Third, following the hearing in 2006, the NPS conducted a survey of 
the major audiovisual programs that were already in existence in the 
parks to determine how many were not currently captioned for visitors 
who are deaf; how many were not audio-described for visitors with 
visual limitations; and how many theaters did not have assistive-
listening devices for visitors with hearing loss. Based on the results 
of the survey, the NPS initiated the Audio-Visual Initiative for 
Visitors with Disabilities, allocating fee revenue funds for the 
correction of these deficiencies. As a result, the NPS recently 
released approximately $3 million of fee revenue funds to add the 
listed components to over 100 currently used programs in over 85 
different park units. Additional projects have been identified and will 
be funded in FY 2009 and beyond.
    Fourth, the NPS has been working to develop a strategy for 
evaluating all assets with regard to conformance with established 
accessibility guidelines and standards and identifying corrective 
actions that should be taken to bring the assets into compliance. This 
strategy includes the development of a comprehensive accessibility 
survey instrument, an accessibility cost estimating program, directions 
for completing the evaluations, and the use of fee revenue funds to 
initiate selected evaluations in order to establish a baseline for 
better understanding the accessibility program needs for the NPS. Those 
evaluations are underway and will continue over the next few years.
    Fifth, the NPS continues to work closely with the National Center 
on Accessibility (NCA) at Indiana University, under a long-term 
cooperative agreement, in order to provide technical assistance and 
continuing education services in making the parks and their programs as 
accessible as is practicable. This training is necessary in order to 
create knowledge and awareness of the legal requirements for 
accessibility, including the regulations, guidelines and standards that 
must be followed, as well as introducing best practices in improving 
access. Over the past two years, the NCA has conducted eight separate 
training courses that have reached over 300 members of the NPS staff. 
These courses have been targeted for park managers, facility managers, 
architects and designers, interpreters, and contractors to the NPS. In 
addition to the training courses, the NCA staff is actively involved in 
assisting the parks in conducting accessibility evaluations, 
identifying deficiencies, and outlining recommended actions for 
correcting the deficiencies.
    Sixth, the NPS has a centralized group of professionals located at 
the Denver Service Center (DSC) in Colorado who oversee the design and 
construction of most major new projects as well as major renovations to 
existing facilities. This team supports the line-item construction and 
Fee Demonstration Programs by providing architectural/engineering 
management, design, technical review, technical support and quality 
assurance services for a wide variety of new, existing and historic 
structures. The DSC has quality assurance staff that is responsible for 
reviewing all projects that are managed by DSC to ensure that 
compliance with accessibility standards are included at the four stages 
of design. They also have developed Contractor Quality Control 
Specifications to be utilized in construction supervision. As part of 
these specifications, the group has developed an Accessibility 
Inspection Report that must be utilized by construction supervisors in 
all projects under the control of the Center.
    Seventh, the NPS also operates the Harpers Ferry Center (HFC) in 
West Virginia which oversees a wide range of activities to assist NPS 
field interpreters. These tools include audiovisual programs, historic 
furnishings, museum exhibits, publications, and wayside exhibits. HFC 
has also worked with other units throughout the NPS to make 
interpretive programs and media more accessible to visitors with 
disabilities. The NPS published ``Programmatic Accessibility Guidelines 
for National Park Service Interpretive Media.'' The guidelines help 
parks ensure accessibility in programs and in writing media contracts. 
The Harpers Ferry Center for Media Services, as a NPS agency, has 
created a public webpage to help parks, contractors, and other agencies 
create accessible media. This site includes downloadable guidelines, 
podcasts, FAQs, and links to legal information and training 
opportunities. The NPS also created specifications and templates for 
large-print brochures.
    Finally, the NPS recently launched a new website, ``National Parks: 
Accessible to Everyone'' that provides information to aid visitors with 
disabilities and special needs to find accessible trails, programs, 
activities, and other features at national park units nationwide. We 
will continue to update this site as more and more park facilities and 
programs are improved to meet the needs of people with disabilities.
Examples of Projects to Improve Access
    The best measure of our accomplishments however, is the degree to 
which each park is implementing the directions on a consistent and 
ongoing basis. Several years ago, NPS established a National 
Accessibility Achievement Award Program. The program was created by the 
NPS to stimulate and reward creative thinking and original program/
project activity among NPS personnel that results in greater 
opportunity for persons with disabilities throughout the National Park 
System, and results in enabling the NPS to better conform to 
servicewide goals and policies. The following examples are just a few 
of the innovative and creative accomplishments that have been 
recognized through this program.
    Denali National Park and Preserve, historically referred to by 
staff and visitors alike as the ``trail-less wilderness'' park, has 
evolved over the past 10 years to become the ``accessible wilderness'' 
park. The park and its partners, including the park concessionaire, and 
the Alaska Railroad invested over $34 million in constructing a new 
visitor center campus at park headquarters. The entire campus is fully 
accessible and all of the principle visitor facilities are clustered in 
close proximity to each other so that visitors can travel between them 
with ease. The Alaska Railroad Depot where almost 65 percent of 
visitors arrive and depart the park was rehabilitated, and linked to 
the new visitor center campus by paved walkways. The new award winning 
Denali Visitor Center, the Morino Grill and the Denali Bookstore sit 
next to each other at the center of the campus linked by short 
accessible paved pathways. The new Murie Science and Learning Center, 
and the employee dining hall are just across the parking lot, and they 
too are fully accessible. The interpretive exhibits in the visitor 
center are scattered along the campus walkways to help visitors learn 
about what they are seeing, and to guide them to their desired 
locations and are all designed and installed to appropriate standards. 
The new high-definition park interpretive film, showing twice per hour 
in the visitor center is captioned, and incorporates assisted listening 
and audio description.
    In 2006, the Friends of Historic Great Falls Tavern in Maryland, a 
Chesapeake & Ohio Canal National Historical Park partner, raised 
$535,000 for the design and purchase of a new replica canal boat to be 
used in the park interpretive story. The design effort required the 
Friends to collaborate with park staff and boat builders to design a 
replica canal boat that was historically accurate, but also made 
accommodations for those with mobility and hearing limitations. Related 
to this effort, was the new universally accessible design canal boat 
that addressed the needs of visitors with mobility limitations by 
including easy access to the entry level, an incline lift to provide 
access for wheelchair users to the upper deck, and accessible restroom 
facilities. It also addressed the needs of individuals with hearing 
limitations by the installation of a state-of-the-art sound system that 
distributes high-quality sound equally to all areas of the boat. A 
current project includes the installation of assistive listening 
devices. It is estimated that the new design with the accessibility 
features will enable an additional 2,000 individuals with mobility 
limitations per year to participate in this experience. This includes 
those who use wheelchairs and other mobility devices, but also senior 
citizens, parents with babies in strollers, and those with more 
invisible mobility limitations such as cardiac and respiratory 
problems.
    In 2003, the staff of Kings Mountain National Military Park in 
South Carolina began working with a Harpers Ferry Design Team in the 
planning and design of new exhibits for the 2,250-square-foot exhibit 
area. One simple goal of the exhibit was to make the experience 
accessible to and usable to everyone. The park staff insisted that 
special attention be given to incorporating features for individuals 
with mobility, visual and hearing limitations in the most seamless and 
unobtrusive way possible rather than providing separate or special 
experiences. Some of the specific elements of the exhibit are:
    <bullet>  Audio elements are included at each exhibit to provide 
information. They offer audio description for visitors who are visually 
limited. In addition, all video components are open-captioned, and all 
audio-only components have flat screen monitors that provide open 
captions.
    <bullet>  Tactile elements, including touchable reproduction 
``Ferguson rifles'' are provided to allow a ``hands on'' experience for 
all visitors.
    <bullet>  Large-scale tactile models of trees recreate the look of 
a long-lost virgin forest that was an important aspect of the battle. 
Lighting was carefully designed to create the dappled light of a 
forest, yet to provide sufficient illumination on text and displays.
    Over the past several years, Booker T. Washington National Monument 
in Virginia has made accessibility a keystone of the park's ongoing 
mission to visitors and staff. In the last ten years, many park-wide 
accessibility improvements have been made to visitor and employee 
facilities and services. Updated accessible visitor and employee 
facilities include a new parking lot which was completely redesigned to 
provide a circular flow of traffic allowing for curb-free drop off and 
curb-free route from all parking spaces to the visitor center. The 
visitor center entrance/exit doors have been retrofitted with automatic 
openers. A new universally accessible restroom building has been built 
replacing very small, minimally accessible restrooms. Most visitor 
center functions for visitors and employees have been made accessible. 
New tactile exhibits have been added and the visitor desk was 
redesigned. The orientation film has been captioned for visitors with 
hearing loss and a new interactive touch screen program meets the 
latest standards for accessibility. It has both audio and video for 
persons with hearing or visual limitations.
DOI Response to the U.S. Access Board Proposed Rule on Outdoor 
        Developed Areas
    In response to the U.S. Access Board Notice of Proposed Rulemaking 
(NPRM) for accessibility guidelines for outdoor developed areas, the 
Department of the Interior (DOI) requested its bureaus to review the 
NPRM and provide comments. Comments were received from the NPS, the 
U.S. Fish and Wildlife Service, the Bureau of Land Management, and the 
Bureau of Reclamation.
    In general, all of the DOI agencies were very supportive of the 
recommendations made in the proposed rule. DOI had been very actively 
involved in the Regulatory Negotiating Committee that developed the 
majority of the proposed rule, and each bureau has been utilizing the 
recommendations from the report as guidance for the design and 
construction of accessible trials, campgrounds, and picnic areas for 
the past several years. We believe that the guidelines provide 
excellent information regarding the design and construction of these 
facilities while at the same time providing guidance for balancing 
access with the preservation and protection of the resources that we 
manage.
    We recommended that the final rule should be reviewed for 
consistency with the original Regulatory Negotiating Committee report, 
and should be reviewed for greater clarity and ease of understanding on 
the part of the eventual user. We also strongly encourage the Access 
Board to expedite the completion of the final rule. We believe that 
adoption of the final guidelines and their incorporation into 
officially enforceable standards will assist all of our bureaus and our 
contractors in being more consistent in the design and construction of 
accessible outdoor developed facilities.
Other activities within DOI
    In addition to the NPS, other bureaus within DOI have accessibility 
programs in place and have undertaken initiatives to improve access by 
people with disabilities to federal lands.
U.S. Fish and Wildlife Service
    U.S. Fish and Wildlife Service (FWS) policy requires that the 
design and construction of new facilities comply with applicable 
accessibility requirements and guidelines, including those related to 
the Americans with Disabilities Act and the Architectural Barriers Act. 
Under Service policy, proposed projects that have accessibility, public 
safety, and other critical issues require review and approval by a FWS 
Regional Engineer before procurement of construction materials and 
services can occur. These policies apply both to large and small 
construction projects, such as visitor centers and boardwalks. The 
following are a few examples that illustrate FWS' commitment to 
improving accessibility to FWS managed facilities and trails:
    <bullet>  The Federal Lands Recreation Enhancement Act authorizes 
FWS to collect fees at national wildlife refuges to enhance visitor 
programs. Many projects funded through the recreation fee program are 
designed to provide accessible parking areas, sidewalks, boardwalks, 
interpretive displays and signs. Often, this funding is supplemented by 
contributions from National Wildlife Refuge Friends organizations, 
Youth Conservation Corps crews, volunteers, and local communities to 
meet visitor needs.
    <bullet>  Another important contributor to building accessible 
facilities is FWS' Visitor Facility Enhancement construction program, 
which funds small scale outdoor projects such as accessible boardwalks, 
fishing piers, hunting blinds, and kiosks that allow visitors to get 
closer to our natural world. Since the program's inception in 2003, 
hundreds of accessible visitor facility enhancement projects have been 
completed. Each year, we consider accessibility as a major factor in 
selecting new projects to fund.
    <bullet>  Several Federal Highway Administration funding programs 
also offer opportunities to design and build new accessible FWS 
facilities. One example is the Refuge Roads program which provides 
funding each year to enhance our trail system--improving accessibility 
is one of several priority factors used to rank projects for funding. 
Through employee training programs and facility reviews, the Service 
strongly encourages the use of the Universal Trails Assessment Process 
(UTAP) for its visitor services staff dealing with trails. The UTAP was 
used to inventory and assess the condition of 1400 miles of trails 
during the past several years.
    <bullet>  FWS is also in the process of updating its Visitor 
Services Handbook which will offer field stations guidance on how to 
review and improve their visitor programs and facilities. The new 
Handbook will include accessibility guidance, a checklist, and 
references for managers and staff to use when conducting field station 
assessments, completing comprehensive conservation plans, and planning 
new facilities.
    <bullet>  FWS has also been involved with the Federal Land 
Management Agency Working Group assembled by the U.S. Access Board to 
offer advice and technical assistance on developing rulemaking that 
applies to outdoor developed areas.
    <bullet>  The National Fish Hatchery System has at least three 
facilities in PA, NV and WA that are currently being renovated to 
improve accessibility in a fish culture building and in visitor centers 
and visitor center restrooms. FWS is providing approximately $137,000 
to complete the projects. Two of these projects are being implemented 
using Visitor Facility Enhancement funding that the National Fish 
Hatchery System received for the first time in 2008.
The Bureau of Land Management
    Toward the goal of ensuring everyone has an equal opportunity to 
participate in and benefit from its programs and facilities, the Bureau 
of Land Management (BLM) has conducted comprehensive accessibility 
evaluations of its recreation facilities for the past several years. 
More than $3 million have been spent over those years to implement more 
than 100 Accessibility Corrective Action Projects at the BLM's 
developed recreation sites, contact stations, and all 18 visitor 
centers. In addition, all new construction or renovation projects 
follow the principles of universal design to ensure accessibility for 
all users.
    Projects to reach all audiences have included closed captioning of 
interpretive videos, remote-viewing stations, raised letter 
interpretive signs, tactile displays, and wheelchair accessible 
toilets, picnic sites, counters, ramps, trails, and boat takeout areas. 
Specific examples of these efforts by BLM include:
    <bullet>  Through an innovative public-private partnership, the 
award winning Cascade Streamwatch project at the Wildwood Recreation 
Area just outside Portland, Oregon features a fully accessible viewing 
chamber actually built within the stream. The chamber presents a rare 
opportunity for everyone to view fish and waterfowl up close and 
personal. The project also includes accessible picnic areas and an 
extensive system of accessible interpretive trails and boardwalks with 
tactile models of fish.
    <bullet>  The Anasazi Heritage Center in Colorado is fully 
accessible with a ramped entry, access into the lowered museum pithouse 
exhibit via wheelchair lift, lowered information counter, and 
accessible walkways and restrooms. The museum films are captioned, 
Discovery Drawers are available with touchable artifacts, and exhibits 
include a large, topographic relief map of southwest Colorado. 
Innovative interactive computer exhibits offer alternative forms of 
access to Pueblos located at nearby Canyons of the Ancients National 
Monument. Accessible trails with interpretive signs also provide access 
to two 12th century villages.
    <bullet>  The BLM Moab, Utah Field Office completed a project to 
make Takeout Beach on the Colorado River more accessible to disabled 
boaters. The newly installed accessible walkway system, shelter, 
toilets, and loading area greatly facilitate exiting the river by 
persons of all abilities. A local group of boaters with disabilities, 
``S'PLORE,'' volunteered many hours of assistance on this project.
    <bullet>  Pompey's Pillar National Monument Interpretive Center in 
Montana accommodates visitors with mobility impairments by using a 
camera which zooms to Captain William Clark's (Lewis and Clark 
Expedition) original signature on the 150-foot sandstone face of the 
Pillar, as well as a tactile replica of the signature. The exhibits 
were all designed with universal accessibility in mind, including sound 
sticks for visually impaired visitors. The center and exhibits are also 
physically accessible, including low retail and information counters.
The Bureau of Reclamation
    The Bureau of Reclamation has been working both internally and with 
our recreation managing partners to make priority recreation sites 
accessible since 1988. Accomplishments by Reclamation vary according to 
the sites available, extent of public uses, and the financial resources 
available to the agency and our Managing Partners. At the programmatic 
level, Reclamation currently is updating our Recreation Facilities 
Manual and accessibility requirements are being incorporated into the 
new edition. Recreation site designs continue to incorporate 
accessibility requirements.
    The following is a summary of a few highlight activities from 
throughout Reclamation's five regions:
    <bullet>  Great Plains Region activities include completing site 
evaluations and constructing new or retrofitting existing facilities, 
including comfort stations, campsites, day use sites, and fishing and 
courtesy docks, to ensure compliance with accessibility guidelines. By 
2010, the Great Plains Region will have expended $19,664,000 with 
Managing Partner contributions of $7,225,000 on all accessibility 
actions. In 2008, the Great Plains Region and our Managing Partner 
completed construction of an accessible Nature Center at our Norman 
Project in Oklahoma.
    <bullet>  In the Lower Colorado Region overlook and Pedestrian 
Plaza, part of a major project near Hoover Dam on the Arizona-Nevada 
border. The Nevada Overlook is adjacent to the abutment for the new 
bridge that is being constructed over the Colorado River. The bridge is 
approximately 500' downstream from the Dam, and several hundred feet 
above the Dam and existing crossing. Many accessible features are 
incorporated into this construction, including the walkway that you can 
see zigzagging to the bridge, restrooms, and the pedestrian plaza 
itself. The walkway has been cut into the rock at the 5% grade.
    <bullet>  For the general public, we are looking at ADA accessible 
trails and ADA interpretive signage at several sites in the Mid-Pacific 
Region for a variety of disabilities such a wheelchair, visual, 
hearing, etc. Each disability requires a different approach to resolve 
the challenges. ADA projects involve: visitor centers, entrance kiosks, 
restrooms and showers, camping sites, picnic areas, trails, 
interpretive and educational signage, RV dump stations, water and 
electrical hookups, floating restrooms, fishing docks, boat launch 
ramps and docks, marina and boat storage facilities.
    <bullet>  In the Pacific Northwest Region Grand Coulee Visitor 
Center, Grand Coulee Dam, Washington: In 2006, Grand Coulee opened a 
newly renovated building, for their visitor center, to remove all 
barriers within the structure and program. The displays were designed 
to provide many colors, large print, and hands on activities to provide 
accessibility for all. Also, listening devices are available that 
describe each display and guides you throughout the facility so the 
folks that are visually impaired or blind can enjoy each exhibit. 
Amplification devices are available for the hearing impaired. At the 
front desk are brochures that have been transcribed into Braille and 
large print. The laser light show is an incredible show and very 
popular attraction so it has also been audio described and is offered 
on the IPod.
    <bullet>  Through partnerships with BOR and non-Federal public 
entities in Colorado, New Mexico, and Utah, in the Upper Colorado 
Region accessibility improvements throughout the area are being 
accomplished. In Colorado River Wildlife Area for example, BOR is 
replacing and relocating benches to provide for better access and 
companion wheelchair seating/transfer. A physical and visual barrier 
has been placed at a safety hazard on the east end of the North Shore 
accessible route (excessive slope and water hazard). Additional efforts 
include concrete shaving to eliminate barriers and tripping hazards 
along accessible route, installation of a secondary fee tube for 
accessibility purposes and installation of appropriate signage at 
accessible parking spaces.
Conclusion
    The Department is dedicated to providing the highest level of 
access that is practical, and is in conformance with the appropriate 
legal mandates and servicewide policy. It is the responsibility of all 
of our park superintendents to identify barriers that limit full 
accessibility, and to take actions to eliminate those barriers. Over 
the past several years, with the help of our staff, superintendents, 
consultants, and partners, we have made a great deal of progress toward 
enhancing the quality of our accessibility program. In spite of the 
issues that make access improvements difficult, and despite the fact 
that some inconsistency still exists, the individual parks are 
continuing to make progress on a park-by-park basis.
    Thank you for the opportunity to testify on this important topic. 
This concludes my prepared remarks and I would be glad to answer any 
questions that you or the members of the subcommittee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Let me begin with a question for Mr. Pearce. In your 
experience and opinion, how have the Departments of the 
Interior and Agriculture responded in implementing the past 
rules and recommendations made by the Access Board, just as a 
point of reference for the future?
    Mr. Pearce. I would characterize it as being very 
receptive, and, in a lot of cases, they were involved in the 
development of the rules. So the transition between actually 
development of the rules and implementation of the rules was 
not that large a stretch. So they have been very supportive and 
also very responsive to our requests to make their facilities 
and the outdoor environment more accessible to persons with 
disabilities.
    There have been some areas where it seemed like there may 
be some problems and where we may have to deal with some issues 
that would make it a little bit difficult, but I think, by and 
large, as implementation came along, what we found was that the 
issues, the concerns, that they had were really resolved by the 
way that the rule has been developed.
    Mr. Grijalva. If there were problems in the implementation, 
how would you gauge those problems to be? Would they be more 
resource based, in terms of not having the resources necessary 
in order to fully implement or expedite the implementation?
    Mr. Pearce. Well, I guess my best response to that is, this 
is the Federal government, and so----
    Mr. Grijalva. We are not necessarily here to help----
    Mr. Pearce. Anytime we ask questions about if the resources 
are available, the answer is probably, most of the time, no, 
that they are not really available. But I do know that, after 
the last hearing that we had a couple of years ago, that there 
was an effort to make some additional resources available, and 
I think that that created a fairly positive response, in terms 
of having accessibility projects, that they felt like they 
could utilize whatever resources were available.
    Mr. Grijalva. So resources are in impetus to expediting 
implementation.
    Mr. Pearce. Yes, sir. I would say that is correct.
    Mr. Grijalva. Thank you. Ms. Fraser, in your testimony, I 
was very interested in the training program, the disability 
awareness training program that your employees go through. You 
talked about attitude shift, I think, as part of your comments. 
In particular, how does that training accomplish that attitude 
shift from viewing compliance as a burden that the agency has 
to deal with versus taking pride in the accessibility for all 
persons in our public lands or in, your instance, the parks?
    Ms. Fraser. I think that the disability awareness training 
really opens people's eyes to the needs that people with 
disabilities have, people with various types of disabilities 
also. So much today is focused on mobility issues, but there 
are many other things that we take for granted in just our ways 
of communicating with each other that, for people with other 
types of disabilities, we need to take that into consideration.
    I think the training really brought our design staff to a 
better understanding of the needs that people with disabilities 
have, and our field staff were better able to identify access 
opportunities in the natural environment after having this 
training.
    Most of us, unless we know someone with a disability, we 
really do not know what people's needs would be, and that is 
what the training does. It helps people understand what the 
specific needs are and issues that people with disabilities 
would have.
    Mr. Grijalva. I had the same experience back when I had 
another real job as a county supervisor in Pima County in 
Southern Arizona, and we implemented, and finally got approval 
from everyone for, the first universally accessible county 
park. In the design, the selection process for architects, 
designers, and construction, the Center for Disability Rights 
played a huge role in putting that together.
    What I saw, as you have seen, from the guy having to take 
care of the grounds to the architects on staff, was a shift, 
and this park is only 40 acres, but it is the most popular park 
in all of the county, and that had tremendous impact, not just 
that little park but the consequence and the results to the 
staff and to the public in general. Thank you for that comment.
    Let me turn to my colleague, Mr. Pearce, for any questions 
he might have, and then I will come back with questions for the 
agency folks later.
    Mr. Pearce of New Mexico. Ms. Fraser, on page 2, you are 
talking about the difficulty of access in some areas, steepness 
of the incline or whatever. How do you all judge when it is too 
much? I am going to follow up with Mr. Pearce to answer the 
same question. So when is it too hard? Do you actually bump 
into that, or do you say, ``It is never too hard''?
    Ms. Fraser. Well, the guidelines provide certain 
parameters, and when we follow those parameters, we are able to 
see what an acceptable slope is. For example, the slope of a 
ramp going into your neighborhood post office is 1-in-12, and 
that is allowable for a certain distance, and, after that, it 
would be difficult for someone in a manual wheelchair, and 
various other things, like cross-slope, which can be very 
difficult over a certain distance.
    But on trails where we have something that goes up a 
mountain, and we do not want to bring in heavy equipment and 
have so many switchbacks that we have changed the character of 
the area, we utilize that universal trail assessment process, 
in that we just measure what exists on the trail, as far as 
slope, cross-slope, surface, with any obstructions, and give 
that information to the public, and they are able to make their 
own decision, based on their own abilities, as to whether they 
can do the trail.
    So there is a range of opportunities, from wheelchair-
accessible trails that follow the guidelines strictly to those 
where we have not really made any changes, but we measure what 
is there, and we give that information to the public.
    Mr. Pearce of New Mexico. And then the same question to 
you, Philip. Are there circumstances where accessibility is 
just not practical?
    Mr. Pearce. Yes. There definitely are. In the guidelines, 
there are what we call ``conditions for departure,'' which 
means that there are conditions, when those conditions are 
present, that you can actually be excluded from having to try 
to make a trail where it does not make any sense to put a 
trail, where it does not make any sense to completely change 
the nature of the environment, because the outdoor environment 
is not like the built environment where you can control the 
different slopes and cross-slopes and changes in level and 
those sorts of things.
    So we recognize that, and so we have tried to build in 
opportunities for people to say, ``Well, this really does not 
make any sense here,'' while, at the same time, not trying to 
give people too many excuses as to why they cannot make 
something accessible to persons with disabilities, and I think 
we have struck a pretty decent balance.
    It is one of those things that it has taken about 10 years 
to get us to the point where we are now, and I am fond of 
saying, ``The bad news is it took us 10 years to get here. The 
good news is, it has taken us 10 years to get here'' because 
what has happened is we have had a lot of experience, and 
people have learned how to be able to interpret the rules and 
to actually make it as accessible as possible without going 
overboard.
    Mr. Pearce of New Mexico. Thanks. Mr. Whitesell, a couple 
of years ago, we had an accessibility hearing for the Park 
Service, and the comments were made by the Park Service, some 
representatives at that point, that new buildings had been 
built, for some time, that were not ADA compliant. Has the Park 
Service gone back and looked at any of those buildings 
routinely? Have you had a systematic study, and have you done 
anything about, I think, the buildings that were built out of 
compliance?
    Mr. Whitesell. I am joined today by David Park, who is the 
accessibility program coordinator for the National Park Service 
and was here in 2006. So, with the Chairman's approval, I would 
ask David to join me at the table.
    Mr. Grijalva. Yes, Mr. Park. If you would just state your 
name and title for the record, I would very much appreciate it.
    Mr. Park. Yes. My name is David Park, and I am the 
accessibility program manager for the National Park Service.
    I think, Mr. Congressman, absolutely, we have gone back and 
looked at those. I think there has been a number of steps that 
have been taken over the past couple of years to try to go back 
and look at our entire process of the way we design and 
construct buildings.
    A lot of our major projects across the country are done by 
a design center out of Denver called our ``Denver Service 
Center,'' and they have taken substantial steps, over the last 
couple of years, to introduce review processes on all of those 
major projects so that we can avoid having those kinds of 
problems that were mentioned that came about in the hearing a 
couple of years ago.
    Mr. Pearce of New Mexico. Have you actually done any 
redesign of some of the buildings that were built not in 
compliance?
    Mr. Park. Yes, there has been.
    Mr. Pearce of New Mexico. Would you get me a list of the 
buildings that have been reengineered and the work that has 
been done on those?
    Mr. Park. We can certainly work with our Denver Service 
Center to get that information.
    Mr. Pearce of New Mexico. All right. Thanks. I appreciate 
it.
    Mr. Bedwell, as I contemplate access into the forests, I 
wonder about the forest, the roadless rules. I will tell you 
what. I will wait until the next round, but if you would be 
contemplating what you all are doing in the Forest Service with 
respect to both access to wilderness areas and then access into 
the areas where the Forest Service is establishing the roadless 
rules. Thank you.
    Mr. Grijalva. Thank you. Dr. Christensen, any questions?
    Ms. Christensen. Thank you, Mr. Chairman. I really 
appreciate your having this hearing. I think we have done one 
in the past quite some time ago. It is important that we 
address these issues so that all Americans and all visitors 
have access to our parks, our forests, and the other lands that 
the Federal government owns.
    Before I ask my question, I just wanted to say to Director 
Bedwell that, as I look at your testimony where it says that 
the costs associated strictly with accessibility are a 
negligible percentage of the overall cost of the project once 
they are taken into consideration from the beginning, I am glad 
to see that because sometimes cost is the issue raised to 
object to the kinds of changes that we need to see in our parks 
and in our public lands to make them accessible. So I am glad 
that your testimony says that, once it is considered from the 
beginning, it is negligible. That is very helpful to us.
    I wanted to ask Mr. Whitesell, the associate director, if 
he could tell us how accessibility needs fit into the agency 
efforts to comprehensively assess the entire National Park 
Service asset portfolio.
    Mr. Whitesell. I would be happy to, and Mr. Park may want 
to add a couple of additional comments.
    The National Park Service has looked, as you know, 
extensively at the entire list of assets that we have, of which 
there are some 60,000 nationwide that we are dealing with, and, 
in going through those assets, we are in significantly better 
shape today than we were two years ago, and certainly than we 
were five or six years ago, in terms of our ability to be able 
to identify accessibility needs, to highlight those 
accessibility needs, in particular, and what I think is most 
important, as we are going forward with improvements on a 
particular facility, to make sure that accessibility needs are 
included within those repairs or rehabilitations or the cyclic 
maintenance programs that we are responsible for.
    The exciting thing about that, I believe, is the fact that, 
as we do those repairs, it is not just a matter of coming in, 
say, for instance, that a door has gone bad, and we replace an 
inaccessible door with an inaccessible door, but, rather, we go 
through and say, for a few dollars more, as Mr. Bedwell 
discusses, we can improve access completely by the removal of 
that facility and the full replacement at one time rather than 
coming back and doing that again two or three years later.
    Ms. Christensen. A lot of what has been discussed has been 
access, in terms of mobility, but we also have other 
disabilities: sight, hearing. I would ask both Director Bedwell 
and you, Associate Director Whitesell, about any adjustments 
that are being made for some other disabilities.
    Mr. Whitesell. Right. As I noted earlier in my testimony, 
we have gone forward now with a website that provides 
information for our visitors. I think it has also helped with 
awareness with our managers to go back and make sure that they 
have identified particular needs in their parks.
    After the last hearing, we went forward, sent a memo from 
the director of the Park Service asking them to analyze their 
programs and to come forward and look at the full range of 
disabilities to say, What are you doing, and what can you do, 
to make sure that your programs, as well as your facilities, 
are accessible to all?
    Ms. Christensen. Mr. Bedwell?
    Mr. Bedwell. Thank you. Yes. There are guidelines, and our 
policy covers the full range of disabilities, and, since the 
nineties, we have been assessing all of our facilities and 
areas for accessibility to all people and integrating them as 
well.
    The mobility thrust of the guidelines deals with a large 
number of Americans, but we have not forgotten about the others 
with sight impairments and the like and incorporate that into 
our interpretive programs. We use tactile interpretative 
displays, as well as recorded and guided experiences, on the 
National Forests.
    Just if our witnesses would speak directly into the mike--
they are having trouble hearing and keeping the recording.
    Mr. Sali, any questions?
    Mr. Sali. Thank you, Mr. Chairman. First of all, I did an 
awful lot of work with the folks with disabilities when I was 
in the Iowa Legislature, and, in my experience, it is always 
best to hear from those folks, and so I see, as I look through 
the two panels that we have today, it does not appear to me 
that we have a person who will actually speak to us who has a 
disability, a physical disability, who has tried to get out and 
use some of the public lands.
    Now, I know we have a lot of people who represent folks, or 
are on boards and whatnot that are working with the folks, but, 
in my experience, it is always best to hear directly from those 
people and hear what kind of challenges that they are facing. 
With due respect to everybody here, in my experience as well, 
often we hear a fairly different view from those folks.
    Along those lines, and, Mr. Bedwell, I think, probably I 
want to put my questions to you. My mother is 84 years old. She 
walks with a walker, but she still enjoys the outdoors, with 
the number of outdoor activities that she can engage in. I have 
a great picture of her, just a couple of years ago, riding on a 
four wheeler.
    When the Forest Service is working on travel-management 
plans for the forests across the country, and, specifically, in 
my district, as those travel plans are put together, what kind 
of consideration in the planning has been done to ensure that 
those Americans that have disabilities are given access to 
public lands?
    I will let you know that I have not studied the travel 
plans in detail, foot by foot, mile by mile, but I have not 
seen that kind of impact taken into account when those travel 
plans are put together. Can you give us an idea of how that 
actually works on the ground?
    Mr. Bedwell. Yes, Mr. Congressman. I am glad to hear that 
your mother is out enjoying the natural environment, as well 
she should. There is a great number of benefits from being in 
the great outdoors.
    We have over 27,000 miles of trails and over 200,000 miles 
of roads across our 193 million acres that are open to 
motorized vehicles. Every one of those either has gone through 
or is the subject of the travel-management rule and is being 
looked at in terms of the full range of opportunities. We do 
look at environmental impacts.
    We look at user safety and user conflicts but work through, 
on a local basis, and look at the full spectrum of 
opportunities and use public participation to hear all of the 
inputs on that. I think there are quite a few opportunities for 
your mother and folks of all abilities to get out and enjoy the 
National Forests. The travel-management rule will continue to 
allow us to focus on that.
    Mr. Sali. One of the things that I noticed, Mr. Bedwell, is 
that this national change from the spaces in Federally 
administered lands, particularly within the Forest Service, 
being open unless there are noticed that they are closed; from 
now, everything is closed unless it is noticed that it is open.
    In some instances where my mother, for example, could take 
a less-troublesome route in the past, on an OHV, now all of 
those opportunities are closed, and they are limited to 
whatever options that the Forest Service dictates they will 
have to go on. How do you explain that foreclosure of 
opportunities by that national rule and that change?
    Mr. Bedwell. Well, our previous chief, Dale Bosworth, said 
that it is important that we get a handle on unmanaged 
recreation, and if there are damages to the environment, that 
is an important thing to look at, and that is why the rule was 
developed.
    However, it is not just about restriction. It is about 
opportunity, and it is about establishing a system of roads, 
trails, and areas where people will know with certainty that 
that is a system that they are going to have over time. As I 
said, 27,000 miles of trails, 200,000 miles of roads, 
currently, and we are looking at those, one by one, and, 
although it is a national framework, it allows for local 
decision-making with public participation to help us set up 
that system of opportunities well into the future while 
protecting the land.
    Mr. Sali. I will represent to you that I have had some 
discussions with folks in Idaho that did take a little 
different view, and I would like to discuss that further with 
you.
    Mr. Chairman, if I may take just one more second, I 
understand, my staff just advised me, Mr. Pearce, that you are 
one of those folks that I had thought we should be hearing 
from, so I do apologize for not having the correct information.
    Mr. Pearce. That is OK. I would easily be able to say that 
most people who are wheelchair users appreciate it when you do 
not recognize that they are wheelchair users.
    Mr. Sali. There you go.
    Mr. Pearce. I think that is good.
    Mr. Sali. Mr. Chairman, may I pursue this with one more 
question to Mr. Pearce?
    Mr. Pearce, I have brought up in hearings before this 
Committee in the past that I am always concerned when we 
designate additional wilderness because it just seems to me 
like, as we designate areas as wilderness, we really 
essentially are foreclosing anyone with a physical disability 
from enjoying those areas in the future.
    Can you tell me what kinds of plans we are making, or 
accommodations that we can make, for people with disabilities 
to enjoy wilderness areas?
    Mr. Pearce. I guess the best response I can give to you is 
that, in speaking for the Access Board, we do not have any 
jurisdiction over that; therefore, we do not make any kinds of 
plans. What we have done is developed a set of guidelines that 
say, If you are going to build a trail, then here is what you 
have to do, and here is the accessibilities that you have to 
include. But it does not require the Federal agencies to open 
their lands up to specific trails and that sort of thing. That 
is a Federal agency decision that they have to make.
    Mr. Sali. Thank you, Mr. Chairman, for your indulgence.
    Mr. Grijalva. You are welcome. Let me just follow up with 
Mr. Bedwell. Could you or Ms. Zeller talk about what it takes 
to make an area accessible under the Forest Service's current 
outdoor recreation and trail accessibility guidelines?
    Mr. Bedwell. With your permission, Mr. Chairman, I would 
like to have Janet Zeller, our current program accessibility 
manager----
    Mr. Grijalva. Ms. Zeller, if you would just give your name 
and title for the record. Thank you.
    Ms. Zeller. Thank you, Mr. Chairman. Janet Zeller, 
Accessibility Program Manager for the U.S. Forest Service.
    Making accessibility a reality on the ground really takes 
both agency commitment and clear guidelines for direction.
    In the 1990s, as Director Bedwell mentioned, we surveyed 
all of our facilities and determined which were accessible, 
which were not, and what needed to be done to make those that 
were not accessible. Since then, whenever we alter or 
reconstruct an existing building, and when we build new 
facilities in outdoor developed areas, whether it is an 
individual camping unit or a scenic overlook or a larger 
campground, even if it is a primitive toilet on a trail, it is 
to be accessible in compliance with the Forest Service 
Accessibility Outdoor Recreation Guidelines.
    Another aspect that really helps us to improve 
accessibility on the ground is that our Forest Service 
requirement is for 100 percent of all new, altered, or 
reconstructed facilities in outdoor developed areas to be 
accessible, and that means, under this 100-percent requirement, 
it simplifies both the design and the purchase because there is 
no question as to whether or not a particular recreation site 
or facility is to be accessible. They all are to be.
    In addition, any new or altered trails that meet the 
criteria are to comply with the trail accessibility guidelines.
    So the result of our commitment to accessibility is making 
a difference on the ground, in that it benefits all people, and 
all people can recreate in those facilities that are designed 
by the Forest Service. Whether or not they have a disability, 
folks can recreate together.
    I just have to share that I am an avid wilderness 
recreator, Mr. Sali, so I really appreciate your recognition 
that folks with disabilities are interested in recreating in 
wilderness, and I personally love the difficulty of getting 
there because I choose that, and I get the great sense of 
having done it. It requires preplanning and going with some 
friends, but we can pick the spots we wish to go to, and I know 
that we also have many places, certainly within the National 
Forests and, I am sure, within the National Parks, where you 
would think you were in wilderness, but you could actually 
drive a motor home there, and it would still be completely 
within the guidelines.
    So I think it is really important that folks have that wide 
range of opportunities. You can pick if you want that 
challenge, or if you do not want the challenge, and decide what 
experience you are looking for. Thank you.
    Mr. Grijalva. Thank you, Ms. Zeller.
    Mr. Bedwell, I understand you also brought a supervisor 
from one of the National Forests, who has both personal 
experience in the management and the implementation of 
accessibility programs in the agency. If you would not mind, 
introduce the gentleman for the record, and if he has any 
comments regarding what is being done in his forest.
    Mr. Bedwell. Yes. In the rugged country of Alaska, Joe 
Meade was our agency's first accessibility coordinator--I was 
the second, and Janet is the third--and he is now the 
supervisor on the Chugach, but we will bring Joe up.
    Mr. Meade. Thank you very much, Mr. Chairman. It is an 
honor to be here and to speak on behalf of the Forest Service 
about public lands, on the whole, and our passion for ensuring 
that all Americans have access to our great outdoors.
    A couple of areas that I would underscore, in response to 
your question, the Chugach National Forest, up in South Central 
Alaska, stunningly beautiful, from a blind man's perspective, 
the Chugach is vastly unroaded. It is the second-largest 
National Forest in the system, vastly unroaded. We have 90 
miles of forest road.
    One would anticipate that we could, and would, be the 
least-accessible of our National Forests in the system, but 
because of attitude and leadership, we actually are amongst the 
agencies' most accessible. You may get there through 
alternative ways, such as float planes, boats, ferry systems, 
but when you arrive, we have ensured that, in our constructed 
features, as Janet so well noted, we incorporate accessibility 
into all of those facilities through our Capital Investment 
program.
    So it is just a matter of how we approach integrating 
universal designs for accessibility in our outdoor recreation 
environments across the board.
    Another unique opportunity we have had, thanks to our 
Congress, has been the ability to take the alternative to 
transportation for parks and public lands authorities, and, 
through grants with that and a partnership with the Alaska 
Railroad, we have actually built whistle-stops up in the heart 
of the Chugach backcountry.
    So folks of all ability can fly into our international 
airport, arrive by cruise ship to one of our ports, or come up 
along the ``all-American highway,'' the Seward Highway, in your 
vehicle, if you can afford $4 a gallon, and, as you arrive, you 
can go ahead and board the Alaska Railroad and offload in a 
number of our remote and isolated backcountry areas and enjoy a 
universally designed set of trails to take you to Spencer 
Glacier or a whole host of unique, truly backcountry settings, 
with brown bear and moose and the like, and have a stunning, 
outdoor recreation experience and, in the near future, actually 
stay at an accessible, public-use cabin.
    I would like to summarize or close by highlighting that all 
of this is really about attitude and leadership. The folks that 
are in this room, for the past 50 years, many have been working 
on the importance of the empowering legislation we have to help 
ensure that people of all abilities have access to all aspects 
of our American dream.
    The most important ingredient that I can add that we need 
to still do today is we need more outdoor recreationists with a 
range of abilities out recreating. We need more individuals 
with disabilities working for our Federal agencies that help 
ensure those opportunities are out there, and, through that, we 
break stereotypes and will be able to frame attitudes that 
ensure we provide the leadership needed for the accessibility 
principles that are being spoken of so well by the Committee 
today. Thank you.
    Mr. Grijalva. Thank you, sir. Mr. Bedwell, if you would not 
mind, for the record, if you would place Mr. Meade's entire 
name and title into the record. I forget to ask the gentleman 
before.
    Mr. Bedwell. Joe Meade, Forest Supervisor, Chugach National 
Forest.
    Mr. Grijalva. Thank you very much. Ms. Zeller and Mr. 
Meade, your testimony was very compelling and very good. Thank 
you. Mr. Pearce?
    Mr. Pearce of New Mexico. Thank you, Mr. Chairman. I will 
ask Mr. Pearce, you have heard Ms. Zeller's testimony that the 
Forest Service requires 100-percent accessibility of the 
campgrounds or whatever. In practical terms, what percent of 
those, and how do you all deal? In other words, I have been 
backpacking, and you find facilities a long way away from 
anywhere, and they would not be practically accessible. How do 
you all deal with the whole idea of motorized transport?
    You heard Mr. Sali's comments that maybe we have 
accessibility to remote campgrounds, but we do not have the 
capability to get to the remote campgrounds by the aging, and 
so what do you all do, as far as motorized access? What is your 
recommendation from the Access Board?
    Mr. Pearce. The real answer to that question is we do not 
have any recommendation about how you get there by motorized 
means. We leave that up to the individual to determine what 
sorts of transport that they would have to have to get to the 
kinds of campgrounds and that sort of thing that are available.
    In some cases, you are going to have circumstances where 
someone who uses a walker or uses a cane or something like 
that, there may be some accessible elements in an outdoor 
developed area that they simply cannot get to because there is 
no means of transporting themselves there other than some sort 
of motorized mobility device. But we do not have anything in 
our rules about requiring or allowing, either way, mobility 
devices of any nature.
    Mr. Pearce of New Mexico. Mr. Bedwell, you had mentioned 
that there are 27,000 miles of trails and 200,000 miles of 
roads in the forests. What percentage of the roads would come 
under the roadless rules that are currently being promulgated 
by the Service? What is your guess on that?
    Mr. Bedwell. Mr. Congressman, I will have to get back to 
you with better numbers on that, but my guess would be that it 
is a very, very low percentage that are actually in roadless 
areas.
    Mr. Pearce of New Mexico. You are saying ``roadless'' or 
``wilderness''?
    Mr. Bedwell. Well, there are practically none in 
wilderness, but, in roadless, there are very few of those 
200,000 miles of roads. There are some roads in roadless areas, 
but it is a small amount. There are some trails that experience 
motorized use at this point that would, based on the public 
process surrounding the state-by-state roadless process, could 
still be open for motorized use.
    Mr. Pearce of New Mexico. Has the Forest Service done any 
legal inquiries into the lawfulness of shutting down the roads 
that are in the wilderness areas? In other words, the Second 
District of New Mexico has the Gila Wilderness, about, I think, 
three million acres in that one forest system, and the intent 
is to close the road that runs right through the middle of it, 
which would shut off access to anyone who is not able to walk 
seeing any part of the Gila Wilderness.
    So my question is, have you all done legal inquiries into 
the legality of excluding access into these areas, be it either 
through roadless rules in the forests or the closing of 
established roads in the wilderness areas themselves?
    Mr. Bedwell. I am not familiar with that case, Mr. 
Congressman.
    Mr. Pearce of New Mexico. Mr. Chairman, I am going to ask 
that question legally. I think I am going to submit a request 
that GAO or IG or somebody take a look at that because I am 
pretty concerned about it. I know, in New Mexico, it is one of 
the highlights of our entire state, and to say that people who 
cannot back pack cannot see it is a pretty extreme position, 
really, and one that I think the Forest Service should ask the 
legal question. I will make that recommendation today, if this 
is adequate. If I need to put that in writing, I will put that 
in writing.
    We continue to hear about the limitations of access. Mr. 
Whitesell, if you were to guess about the Appalachian Trail, 
about what percent is actually handicapped accessible among the 
2,700 miles or so?
    Mr. Whitesell. Sir, I do not know.
    Mr. Pearce of New Mexico. Just a guess. Is it in the five 
or six or 10 miles? You mentioned in your testimony some areas 
that have a mile loop here and a mile loop there.
    Mr. Whitesell. The best way that I think I can answer that 
question, Mr. Congressman, is that, in the next panel, a member 
of the Appalachian Trail Conference is going to speak 
specifically to the sections of the trail.
    Mr. Pearce of New Mexico. OK. We will ask the same question 
then. But just in case, if you would answer that in writing, I 
would appreciate it.
    Mr. Whitesell. Yes.
    Mr. Pearce of New Mexico. All right. Thanks. Thank you, Mr. 
Chairman.
    Mr. Grijalva. Mr. Sali, any follow-up questions?
    [No response.]
    Mr. Grijalva. Thank you.
    Before I end with this panel, Mr. Whitesell, there was one 
question that I would like to follow up on.
    How many of the Department of the Interior agencies have a 
dedicated funding category for completing accessibility 
projects, and, if so, how do these accessibility projects 
compete with other categories for project funding? Is there a 
dedicated source within some of the agencies? That is 
fundamentally the question.
    Mr. Whitesell. There are. I can speak for the National Park 
Service that we do not, in the Park Service, have a set-aside 
program, specifically. We have, on occasion, dedicated a 
portion of an account to work on accessibility issues, but we 
do not have a dedicated program.
    I am joined by colleagues from the BLM, Bureau of 
Reclamation, and the Fish and Wildlife Service, and, if you 
would like, we could certainly have them address that.
    Mr. Grijalva. Yes. Rather than belabor that point, if your 
colleagues and yourself could submit to the Committee a 
response to that particular question about dedicated funding, I 
would very much appreciate it because part of the assessment I 
hope to do after this is look at the resource question very, 
very closely, and your information would be very helpful.
    Mr. Whitesell. Shall do. Thank you.
    Mr. Grijalva. Mr. Pearce, Mr. Sali, any additional 
questions?
    Mr. Sali. Mr. Chairman, one question for the whole panel. 
Have any of you ever been to Idaho? What parts were you able to 
see?
    Mr. Bedwell. The southern part around Boise, Boise National 
Forest, the middle fork of the Salmon; I have been there.
    Mr. Sali. OK. Were you up by the wilderness area up there, 
Frank Church and that area?
    Mr. Bedwell. Yes.
    Mr. Sali. OK. Good. That will help for our discussions 
going forward.
    Mr. Bedwell. OK.
    Mr. Sali. Thank you, Mr. Chairman.
    Mr. Bedwell. I look forward to it.
    Mr. Grijalva. With that, let me thank you very much for 
your time and your testimony, and, with that, I will invite the 
next panel up for their testimony. Thank you very much.
    [Pause.]
    Mr. Grijalva. Thank you very much. Let me welcome the 
witnesses, and thank you for your time. Let me begin our second 
panel with Tipton Ray, Wilderness Inquiry. Your comments and 
testimony sir, and thank you for being here.

         STATEMENT OF M. TIPTON RAY, WILDERNESS INQUIRY

    Mr. Ray. Good morning, and thank you very much, Mr. 
Chairman and Members of the Committee, for allowing me to come 
in here today and talk with you.
    I am representing Wilderness Inquiry. My name is Tipton 
Ray. I am a consultant in private practice. I live in Baltimore 
but, for about 24 years, lived out in Minnesota, where 
Wilderness Inquiry is located, and worked for them as one of 
their trip leaders and on some other projects.
    Wilderness Inquiry, based in Minneapolis, is a nonprofit 
organization which conducts outdoor recreation programs for 
people of all abilities, utilizing Federal lands as a backdrop 
for many of its adventures, places like Yellowstone National 
Park; the Chugach National Forest, which we have heard about 
today; and also the St. Croix National Scenic River, to name a 
few.
    We offer over 250 events each year, serving more than 9,000 
people.
    Wilderness Inquiry's stated mission is, and I quote, ``to 
provide outdoor adventure experiences that inspire personal 
growth, community integration, and enhance awareness of the 
environment. Wilderness Inquiry adventures encourage people to 
open themselves to new possibilities and opportunities.''
    We are committed to integrating people with varying levels 
of ability on our trips. In fact, Wilderness Inquiry was 
started in 1978 to demonstrate that people with disabilities 
can enjoy wilderness, just like everyone else, on its own 
terms. Our philosophy is to treat each person as an individual 
rather than as a disability. We focus on people's abilities and 
what they can do, not on what they cannot do. We treat every 
participant equally, recognizing that each has a vital role to 
play in the success of a trip.
    We are recognized as a national and international leader in 
outdoor adventure programming that includes people with and 
without disabilities.
    In addition to our trips, we partner with many 
organizations to provide training, outdoor skills workshops at 
community events, and conduct research or develop curriculum. 
We have signed memoranda of understanding with each of the 
Federal land-management agencies. We have also taken the lead 
on several congressionally mandated studies on how the Federal 
government can improve access to outdoor recreation.
    When talking with prospective participants about our trips, 
we are up front about the extent and severity of the obstacles 
they are likely to face. We offer no illusions about 
accessibility. We do not look for the easiest, most accessible 
trip or route. We look, instead, for the potential experience 
offered by an area. We have learned not to depend on accessible 
outdoor developed areas.
    For many individuals with disabilities, having to give up 
their independence is of paramount importance. They come to the 
trip aware that they must, at times, rely on the assistance of 
staff and co-participants to lend a hand with mobility around 
the campsite and their daily routine, if necessary, like 
eating, dressing, or those of a more personal nature, such as 
toileting.
    The person with the disability who is more independent at 
home can sometimes feel helpless and burdensome to staff and 
the group. Accessible facilities and elements, when provided, 
afford our participants the opportunity to retain their 
independence as much as possible, maintain feelings of self-
worth, as well as feel included as a valued member of the 
group.
    When participants without disabilities observe those who 
have disabilities functioning independently, ably, and, in 
their minds, normally, stereotypes are eliminated, and they 
start to focus on their co-participants in new ways, as peers, 
not people who need help.
    The Access Board has raised various questions with respect 
to the number or percentages of elements within outdoor 
developed areas that should be required to be accessible. 
Facilities are placed in backcountry areas primarily for 
resource protection, and visitors are often instructed to 
concentrate their use at these sites. This is especially true 
for the Boundary Waters Canoe Area Wilderness, a part of the 
Superior National Forest and a frequent and convenient 
destination for us.
    We wholeheartedly agree with this management approach. 
However, that means our groups have no choice but to camp in 
these established overnight sites. Since we cannot predict 
where we may stop at the end of the travel day, or which 
campsites might be available, it is essential that all 
facilities and elements, when provided, meet accessibility 
standards.
    It can be said that participation on our outdoor adventure 
trips is ``challenge by choice.'' One can choose to travel into 
remote and rugged backcountry, even if that means they will 
need direct assistance to do so and if that is the type of 
experience they want. But using a toilet facility, for example, 
is not a choice. Therefore, it should not be a challenge.
    We recognize the difficulties inherent in providing 
facility and programmatic accessibility to individuals with 
disabilities in outdoor recreation settings. However, we 
believe that if Federal land managers choose to modify outdoor 
environments to protect resources and provide conveniences to 
visitors, then those facilities and elements should be 
accessible, to the extent feasible.
    If you would like to learn more about our organization, we 
do have a website. It is www.wildernessinquiry.org. We have a 
few people in the audience here that we have heard from already 
who have actually been on some of our trips. If you would like 
a more personal perspective, we can talk to them.
    I would be happy to address any questions that you have, 
and if I cannot respond to those, I would be happy to take 
those back to our executive director, Greg Lace, and get back 
to you. Thank you.
    [The prepared statement of Mr. Ray follows:]

    Statement of M. Tipton Ray, Consultant, Wilderness Inquiry, Inc.

    Mr. Chairman and members of the Committee. Good morning and thank 
you for giving me the opportunity to speak with you today about a very 
important subject. My name is Tipton Ray. As a consultant in private 
practice my professional focus is on recreation programs that are 
inclusive of children and adults with disabilities. I was also an 
alternate TASH representative to the Regulatory Negotiations Committee 
when the proposed guidelines you're addressing were developed. In 
recent years, I have worked with various organizations to address 
issues surrounding accessibility of trails and facilities. In 2006, I 
came under contract with the Appalachian Trail Conservancy, to conduct 
a comprehensive baseline accessibility assessment of overnight site 
facilities along the Appalachian National Scenic Trail.
    I'm here today representing Wilderness Inquiry (WI), a Minneapolis, 
MN based nonprofit corporation dedicated to sharing the outdoors with 
others. They are also a former employer of mine. I would like to share 
with you the perspective of a service provider, which utilizes federal 
lands throughout the United States as a backdrop for many of its 
adventures--places like Yellowstone National Park, Chugach National 
Forest, St. Croix National Scenic River, and Everglades National Park, 
to name a few.
    Wilderness Inquiry provides all kinds of outdoor adventures for a 
wide variety of people, including canoe, sea-kayak, hiking, horsepack, 
dogsled and raft trips throughout North America and the world. Our 
passion is making high-quality outdoor experiences accessible for 
everyone, including those who do not typically get out and enjoy the 
wilderness, especially people with disabilities. Each year we conduct 
over 250 events serving more than 9,000 people. Our trips are designed 
for everyone from novices to seasoned outdoor veterans of all ages and 
abilities. Trip participants come from all 50 states and from around 
the world.
    Founded in 1978, WI is run with 10 full-time staff, 60 part-time 
staff, and a volunteer board of directors of 21 people. We are not a 
subsidiary, nor are we officially affiliated with any group or 
organization. We do partner with many organizations and over the years 
have signed Memoranda of Understanding with each of the federal land 
management agencies.
    WI's stated mission is ``to provide outdoor adventure experiences 
that inspire personal growth, community integration, and enhanced 
awareness of the environment. Wilderness Inquiry adventures encourage 
people to open themselves to new possibilities and opportunities.''
    We are very committed to integrating people with varying levels of 
ability on our trips. In fact, Wilderness Inquiry was started to 
demonstrate that people with disabilities can enjoy wilderness just 
like everyone else--on its own terms. Over the years, we've come to 
realize that the notion of ``disability'' is a very relative concept, 
mostly related to one's attitude. Integrated wilderness travel tends to 
destroy stereotypes people have about ``disability'' and helps us all 
recognize our common humanity. Our philosophy is to treat each person 
as an individual rather than as a disability. We focus on what people 
can do--their abilities--not on what they cannot do. Our goal is to 
integrate persons with disabilities seamlessly into our trips without 
making a big deal about it, and we've been doing it successfully since 
1978.
    In addition to trips, we have a variety of programs and activities 
that help fulfill our mission. We do training for other organizations 
and provide outdoor skills workshops at community events. We also raise 
money to provide scholarships to make our programs financially 
accessible to everyone. We have been fortunate to partner with our 
neighbor, the University of Minnesota, to assist with our training, 
attract student interns, as well as conduct some very compelling 
research that demonstrates the positive and sustainable outcomes of 
integrated outdoor adventures for participants with and without 
disabilities.
    In 1992, we contracted with the National Council on Disability to 
conduct a study and report, pursuant to Section 507 of the Americans 
with Disabilities Act of 1990, on the effect that wilderness 
designations and wilderness land management practices have on the 
ability of individuals with disabilities to use and enjoy the National 
Wilderness Reservation System (established under the Wilderness Act--16 
U.S.C. 1131 et seq.). We also developed and co-authored (Greg Lais, WI, 
Joe Meade and Liz Close, USDA-Forest Service) a companion piece to the 
above study titled, Wilderness Access Decision Tool, under an agreement 
with the USDA - Forest Service and the USDI--Bureau of Land Management. 
This tool was developed to help federal wilderness managers make 
consistent decisions on the use of the National Wilderness Preservation 
System by persons with disabilities.
    In 1999, we came under contract to conduct a Congressional study 
required by Public Law 105-359 on ways to improve access for persons 
with disabilities to outdoor recreation opportunities made available to 
the public on federal lands. The final report was published June 27, 
2000 and is titled Improving Access to Outdoor Recreational Activities 
on Federal Lands. We want to alert you to several recommendations 
within that report we feel are still relevant today.
    The outdoor adventure trips, however, are our ``bread and butter'' 
and the reason WI has become a national and international leader in 
outdoor adventure programming that include people with and without 
disabilities.
    WI will not take a trip into unknown environments. We will scout 
these potential trip locations with a discerning and careful eye to any 
and all possible concerns, knowing well the skills and abilities of 
persons who typically sign-up for WI trips, as well as our own capacity 
to provide a safe and successful trip. Our risk management procedures 
require us to have a detailed understanding of what we can expect 
within a given outdoor recreation setting.
    But, I need to emphasize: we do not look for the easiest, most 
accessible trip or route. We look instead for the potential experience 
offered by an area. We have learned not to depend on accessible outdoor 
developed areas, such as trails, beaches, campgrounds, and picnic 
areas. That said we do appreciate staging areas, trailheads, and 
campsites, which afford the greatest level of universal accessibility, 
benefiting all members of the group, including those who may have 
disabilities.
    When WI staff speaks with prospective participants, we share with 
them what we know about the environment in which we expect to travel. 
We are upfront about the extent and severity of the obstacles they are 
likely to face. We can describe to the participant with a disability, 
with near certainty, that where we are going is not likely to be 
accessible, even those more developed areas provided by land management 
agencies. We offer no illusions about what they will be required to do 
in the backcountry. There are no flush toilets, sinks and showers, or 
running water, unless it's the river upon which we paddle each day. 
However, we also provide assurance that as an organization and as a 
traveling group we will provide the assistance and support each person 
needs to have a safe and enjoyable experience. From this conversation 
we identify what accommodations, if any, are necessary for this 
individual.
    For many individuals with disabilities, having to give up their 
independence is of paramount importance. They come to the trip aware 
that they must, at times, rely on staff and co-participants, likely 
strangers all, to lend a hand with mobility around the campsite and, if 
necessary, assistance with their daily routine, like eating, dressing, 
or those of a more personal nature, such as toileting, perhaps the 
biggest concern of ALL participants new to wilderness travel. The 
person with a disability, who is more independent at home, can 
sometimes feel helpless and burdensome to staff and the group. Staff is 
aware of this and is trained to assure that these matters are handled 
sensitively and the individual is treated with respect and dignity.
    Accessible facilities and elements, when provided, afford our 
participants the opportunity to retain their independence to the 
greatest extent possible, maintain feelings of self-worth, as well as 
feel included as a valued member of the group. When participants 
without disabilities observe those who have disabilities functioning 
independently, ably, and, in their minds, ``normally,'' stereotypes are 
eliminated and they start to focus on their co-participants in new 
ways--as peers, not people who need ``help.''
    Many land management agencies provide essential facilities in 
backcountry settings, such as toilet risers, picnic tables, fire rings, 
and tent pads or platforms. Any other creature comforts are those we 
take along. The Access Board has raised various questions with respect 
to the number or percentages of elements within outdoor developed areas 
that should be required to be accessible. Facilities are placed in 
backcountry areas primarily for resource protection and visitors are 
often instructed to concentrate their use at these sites. This is 
especially true for the Boundary Waters Canoe Area Wilderness (BWCAW), 
a part of the Superior National Forest and a frequent destination for 
us.
    We wholeheartedly agree with this management approach. However, 
that means our groups have no choice but to camp in these established 
overnight sites. Since we cannot predict where we may stop at the end 
of the travel day or which campsites might be available, it's essential 
that all facilities and elements, when provided, meet accessibility 
standards. If not, then there needs to be some level of direct 
accountability that clearly justifies why accessibility is not 
possible.
    It can be said that participation on our outdoor adventure trips is 
``challenge by choice.'' One can choose to travel into remote and 
rugged backcountry, even if that means they will need direct assistance 
to do so and if that is the type of experience they want. But, using a 
toilet facility, for example, isn't a choice. Therefore, it shouldn't 
be a challenge. We would like to particularly commend the Forest 
Service for their efforts since 1999 to install accessible toilet 
risers at campsites throughout the BWCAW. The simple, understated 
design, which blends well with the natural environment, plus the 
careful placement of these toilet risers, affords our participants the 
level of independence and privacy they desire.
    Research and anecdotal evidence suggests that people with 
disabilities have the same preferences for outdoor environments, as do 
people without disabilities. McAvoy (McAvoy, Parks and Recreation, 
August, 2001), informed by his extensive research on this topic while 
at the University of Minnesota and often in collaboration with WI, 
wrote that:
    ``The very elements that make outdoor areas and programs attractive 
are their undeveloped nature, their ruggedness, the presence of natural 
forces at work, and the challenge to interact with nature more on 
nature's terms rather than our technological human terms.''
    He found that people with disabilities participate in outdoor 
adventure programs not for therapeutic reasons, but for the same 
reasons as people without disabilities: ``enjoyment, feelings of self-
accomplishment, a connection with the natural world, opportunities to 
improve leisure skills, to overcome natural obstacles, and to test 
their own limits.'' (Therapeutic Recreation Journal, 3, 1989, p.63)
    One myth McAvoy (2001) explodes is that ``people with disabilities 
do not prefer the same kind of outdoor environments as do people 
without disabilities. This myth would hold that people with 
disabilities do not value outdoor environments, and they would like all 
outdoor environments made more accessible through development (i.e. 
leveling, paving, motorized access, etc.).'' People with disabilities, 
generally speaking, DO NOT want to see the wilderness significantly 
modified in the name of accessibility as this may impact their 
experiences and the benefits they hope to accrue.
    We recognize the challenges inherent in providing facility and 
programmatic accessibility to individuals with disabilities in outdoor 
recreation settings. However, we believe that if federal land managers 
choose to modify outdoor environments to protect resources and provide 
conveniences to visitors, then those facilities and elements should be 
accessible, to the extent feasible.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me now ask Mr. Lew Deal, Director, Outdoor Programs and 
Support Services, Robison International. Sir?

 STATEMENT OF LEW DEAL, DIRECTOR, OUTDOOR PROGRAMS AND SUPPORT 
             SERVICES, ROBISON INTERNATIONAL, INC.

    Mr. Deal. Thank you for allowing me to be here today, Mr. 
Chairman.
    I am probably a fish out of water here, with all of these 
other folks. I am a retired Marine Cobra pilot, and I began 
working with disabled veterans when I was still on active duty 
in 1993 at Quantico, Virginia. My goal was to establish a 
permanent, full-blown, hunting program for some of my buddies 
who came back and were shot up pretty bad.
    From there, I learned a great deal about what was going on 
on military lands and went on to help pass the Disabled 
Sportsmen's Access Act, and, from that, working with 
organizations like the Paralyzed Veterans of America and now 
also with the Armed Forces Foundation, we are trying to provide 
opportunities for wounded warriors and disabled veterans to 
access the out-of-doors.
    I have been involved with programs and projects from Alaska 
to Florida, and while there were a lot of things talked about 
here today about access and programs, I would like to talk 
about one narrow aspect that I think is a very critical aspect.
    When you provide access to an area, I can take wounded from 
Walter Reed or Bethesda, put them in a wheelchair-accessible 
van, drive them down a road, and get them out on a trail, but 
if they want to hunt, there is another piece to that puzzle 
that you need to think about, or I would ask you to consider, 
and that is adaptive equipment.
    There is a variety of things off the shelf that you can put 
out there that will allow an individual to enjoy the out-of-
doors on a hunting program safely and, once it is over with, 
take that away. I heard someone talk about building ground 
hunting blinds. That is OK. We did that at Quantico, but it 
takes away from the natural environment. It is also a 
maintenance problem, and things change, and animals pattern 
differently.
    So I would ask that the agencies look at some of the off-
the-shelf products that are out there. There is a device called 
a ``Huntmaster.'' We have put about 40 of these--``we'' being 
the Paralyzed Veterans of America and other organizations--
across the country.
    It is a stand. It is on a trailer. It goes up 21 feet. It 
is fully enclosed, and another safety aspect: If I am working 
with a young man out of Walter Reed that lost both of his legs, 
and he is out there trying to hunt, and it is cold, I have a 
real safety issue. You can control that environment for that 
individual. Put a heater in there, and everything is fine. If 
it starts to rain, you do not have to worry; he can stay in 
there.
    The other thing with these mobile, pop-up blinds and the 
Huntmaster: When you are done, you take them away, and you can 
store them for the wintertime and bring them back out whenever 
you need them. They are also a great platform for wildlife 
viewing. I have had older veterans who said, ``I do not want to 
hunt anymore, but my granddaughter likes to take photos.'' They 
go out, they sit in the Huntmaster, and they take photos of 
deer, turkeys, et cetera.
    In the programs, I do not know if these agencies are 
reaching out to the veterans' hospitals. We view outdoor 
activities as recreation, but, for these folks, it is therapy. 
I have been there now for a long time, watching the impact it 
has to get somebody out and let them enjoy the out-of-doors and 
feel whole again and the socialization.
    I do one in Alcalde, New Mexico, every year. This past 
year, I had seven wounded Marines, varying from amputees, 
gunshot wounds, shrapnel, and even burn victims. All seven 
bagged an elk. One of them came up to me afterwards, and he 
said, ``Sir, that is the most fun I have had since my 
honeymoon.'' I said, ``Don't go home and say that, please.''
    But that is what I am trying to say today. Please look at 
adaptive equipment off the shelf. Get it out there and provide 
a safe and sporting hunt for these individuals.
    Also, the fishing piers; we have one at Quantico. It is 
superb. Fishing is the number-one activity. We have also 
provided wheelchair-accessible, pontoon boats to military bases 
and other places, free of charge.
    That is all I have got. Any questions, and thank you for 
letting me be here today.
    [The prepared statement of Mr. Deal follows:]

        Statement of Lt. Col. Lew Deal, USMC (Ret.), Director, 
   Outdoor Programs and Support Services, Robison International, Inc.

    Dear Mr. Chairman and Members of the Subcommittee,
    Thank you for allowing me to testify before this Subcommittee 
today. I will be short and to the point.
    I have been involved with providing outdoor recreational 
opportunities for disabled individuals for a number of years. In 1993 
at Marine Corps Base Quantico, VA, I initiated a fully integrated hunt 
program for disabled veterans. This program allowed mobility impaired 
veterans to hunt the entire season from specially constructed ground 
blinds in specifically designated areas. Later, we were able to improve 
the program with a mobile elevating stand. From this experience I then 
went on to help with drafting and the passage of the Disabled 
Sportsmen's Access Act of 1998 (Public Law 105-270). I am currently 
working with the Paralyzed Veterans of America, the Armed Forces 
Foundation, and the North Carolina Handicapped Sportsmen's Association 
to continue providing disabled individuals with outdoor recreation 
experiences.
    There are many topics that could be addressed in these hearings. I 
would like to focus on just one key element in providing recreational 
access for disabled individuals. The use of adaptive equipment can be 
the critical component in a successful and safe outdoor program. The 
main emphasis of our programs over the years has been on hunting, 
fishing, and wildlife viewing. I view adaptive equipment as the 
critical bridge between accessibility and participation in traditional 
outdoor sports for the physically challenged.
    For fishing: A wheelchair accessible pontoon boat has proven to be 
the best choice. Not only does it provide a stable platform, it also 
allows the wheelchair individual the opportunity to pilot the boat. 
Providing independence and mobility on the water! There are also 
numerous wheelchair accessible fishing pier designs available. MCB 
Quantico has an excellent wheelchair accessible facility.
    For hunting: There are a variety of blinds and stands that can be 
utilized. However practical experience gained from hunts across the 
nation, a mobile and elevating stand provides the best option. Since 
the passage of the Disabled Sportsmen's Access Act, the Paralyzed 
Veterans of America have been donating a device called the Huntmaster 
to military bases, state wildlife agencies, the Army Corps of 
Engineers, and the National Wildlife Refuge System. The fully enclosed 
compartment goes from ground level to twenty-one feet. It is mounted on 
a trailer and can be easily towed. This inherent mobility allows for 
relocation as conditions change and leaves no permanent ground 
signature. There is room for two individuals in the weather proof 
compartment: a very desirable capability with young hunters. As an 
added bonus, this type of equipment can also be used for wildlife 
viewing.
    I have seen first hand the importance of participation in outdoor 
activities has on disabled individuals, especially our wounded service 
members. It is more than just recreation--it is rehabilitation. A major 
goal in accessible outdoor recreation is to foster independence in our 
disabled Americans. The introduction of adaptive equipment can allow 
for a safe and rewarding experience for all.
    Thank you for allowing me to be here today. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Let me now ask William Little, Chief Executive Officer, 
BarZ Adventures, Inc. Your comments, sir?

STATEMENT OF WILLIAM LEE LITTLE, CHIEF EXECUTIVE OFFICER, BarZ 
                        ADVENTURES INC.

    Mr. Little. Hi. Hello. I am Lee Little, and I am the CEO 
and founder of BarZ Adventures. My company has developed the 
GPS Ranger. It is an automated tour guide system. This product 
was designed with the visitors to the public lands in mind.
    When we speak of ``visitors,'' we mean equal access for 
all. The GPS Ranger is a rugged, hand-held computer with built-
in GPS receiver, and how it works is when a person comes within 
range of a point of interest, the GPS Ranger will automatically 
present or trigger preloaded, multimedia content. This content 
can be audio, video, text, animation, historical photos, music, 
or any combination thereof.
    The GPS Ranger can be used for creating walking, driving, 
boating tours for any location in the world. Tours can be 
developed for any demographic, any language, and address any 
disability. GPS Rangers are currently deployed at eight 
different locations within the National Park System. They are 
also in zoos and city walking tours in North America.
    In developing the GPS Ranger product offering, the 
importance of ADA compliance became abundantly clear. After 
being asked by Harper's Ferry Media Center staff about the 
Ranger's capability to meet ADA, we incorporated ADA compliance 
into our hardware- and software-development strategy.
    The GPS Ranger supports accessibility for the deaf and 
hard-of-hearing through the use of captions and sign language. 
In response to the NPS Media Center's request, and at our 
expense, we developed the first captioning tour at Martin 
Luther King, Jr., National Historical Site.
    Recently, we went one step further with the creation of a 
full-captioning and American Sign Language tour as part of our 
installation at the Independence Visitors Center, part of the 
Independence National Historical Park. At this venue, you can 
get a GPS Ranger in five languages, all with captioning, as 
well as in sign language.
    In Philadelphia, we added ASL, at our expense, to prove 
that we can support ADA statutes and set the bar for equal 
access for interpretive information.
    The GPS Ranger has been approved by the National Center on 
Accessibility, an organization, I believe, that is supported by 
the National Parks.
    For those with visual impairments, the GPS Ranger can be 
programmed to offer a full-audio-description tour that is 
triggered automatically based on the location of the user.
    The GPS Ranger helps those with physical disabilities by 
highlighting the availability and the locations of accessible 
amenities in the outdoor developed areas. As public lands make 
available accessible picnic tables, fire rings, trails, and 
ramps, communications at those amenities is easy and accurate 
on the system's GPS-activated maps.
    The GPS Ranger is a completely noninvasive system. The 
system does not require any additional signage, nor does it 
require any special antennas or other technology 
infrastructure.
    Utilizing the GPS Ranger system to deliver on-site 
information relieves the significant expense of physical 
signage purchase, physical signage installation and 
maintenance, and it helps maintain the beauty of outdoor areas.
    The GPS Ranger can be programmed to meet your goals of full 
access for all visitors. Throughout the public land system, 
there are a variety of tour solutions which are not ADA 
compliant. Those include audio tours found at Ellis Island and 
the Statue of Liberty, Alcatraz, and the USS ARIZONA; cell-
phone tours, which are available at Valley Forge and right here 
on the National Mall; and MP3 audio tours, which are found at 
numerous venues.
    The GPS Ranger is a cost-effective, communication platform 
for expanding accessibility and also to support the 
interpretive mission of the parks by providing meaningful, 
interpretive content for all visitors.
    As I mentioned, our system can be programmed to support 
multiple ``tours,'' both for the accessible market, as well as 
for the general domestic and international visitor.
    Traditionally, supporting accessibility is difficult and 
expensive in the public lands. A few weeks ago, my company was 
at the Grand Canyon in a meeting with the chief of 
interpretation. While there, a request for a sign interpreter 
was made so that a deaf visitor could visit the park. The NPS 
staff told us that meeting this request is time consuming, 
complicated, and costly to find personal sign interpreters for 
their deaf visitors.
    The GPS Ranger, with sign language, captioning, and audio 
description, offers multiple benefits. It saves the park from 
the ongoing expense of providing sign interpreters. It allows 
the deaf and the visually impaired visitor the freedom to show 
up and tour the park on their own schedule and at their own 
pace.
    In nearly all of the cases, the GPS Ranger will pay for 
itself in a matter of months.
    In closing, I hope that this Committee will take a 
leadership role to address access on public lands. The position 
you will take will have a trickle-down effect outside of the 
Federal land system and affect decisions in state parks, theme 
parks, zoos, public gardens, and museums. With your leadership, 
you can raise the bar for all venues, which will pave the way 
for equal access for all. Thank you.
    [The prepared statement of Mr. Little follows:]

        Statement of Wm. Lee Little, Founder, CEO & President, 
                  BarZ Adventures Inc., Austin, Texas

Introduction
    My name is Wm. Lee Little and I am the founder and CEO of BarZ 
Adventures, and the inventor of the GPS Ranger<SUP>TM</SUP> video tour 
guide solution that delivers multimedia content based on location using 
GPS (Global Positioning System) technology. The GPS Ranger system is a 
proven technology that can assist the National Parks, Forests and 
Public Lands in expanding access for people with disabilities.
Executive Summary
    The GPS Ranger multimedia tour guide system offers a quality and 
cost effective platform solution for the National Parks, Forests and 
Public Lands to meet ADA guidelines and expand access to Federal Lands 
for people with disabilities. An electronic platform that delivers geo-
referenced content based on location, the system allows the park 
service to meet several accessibility challenges with one solution. Due 
to the flexible nature of the system, the GPS Ranger has the ability to 
deliver a variety of information in a variety of different methods, in 
any language and captioning and quick content updates can be made so 
data is timely and accurate.
Contextual Background
    According to the 2000 U.S. Census, there are 56 million people with 
disabilities in the United States. Of the 69.6 million families in the 
U.S., 20.3 million families have at least one member with a disability.
    According to Harris Interactive, 71% of adults with disabilities 
(or more than 22 million people) have traveled at least once in the 
past 2 years. This includes 21 million pleasure/leisure travelers. 
There is also a subgroup of more frequent travelers in the disability 
community--20% of all adults with disabilities travel at least 6 times 
every 2 years.
    Disabled Americans are visiting the country's National Parks and 
Public Lands in greater numbers, and these visitors deserve equal 
access to outdoor developed areas. With such substantial numbers of 
disabled travelers in the United States, the decisions, statutes and 
regulations placed regarding equal access to Public Land resources will 
have wide-spread and far reaching consequences to the American public.
Background
    The GPS Ranger<SUP>TM</SUP> automated tour guide system was 
designed with the National Parks and Public Lands visitor in mind.
    The idea for the GPS Ranger came in 2001 while visiting Yellowstone 
National Park. The maps and navigational aids that were available to 
visitors were simplistic, interactions with park rangers were nearly 
non-existent and accessibility to many park highlights was extremely 
limited and only for the English speaking, able-bodied visitor.
    After leaving Yellowstone, I continued to ponder this situation. I 
wondered why people continue to visit and support the parks if the 
resources are not in place to learn and experience the greatness of the 
venue.
    Doing some research, I learned about the three tenants of the NPS: 
protect, preserve & educate. Those three tenants are valuable for all 
Public Lands. My experience in Yellowstone started the gears in motion 
for the development of the GPS Ranger automated tour guide system with 
the goal to meet all three tenants. The GPS Ranger meets all three and 
also meets accessibility needs.
The GPS Ranger<SUP>TM</SUP> System
    The GPS Ranger is a hardware and software communications platform 
that is designed to ``trigger'' location based or geo-referenced 
multimedia for electronic story telling.
    Here is how it works: Every point on earth has a latitude longitude 
coordinate beamed down from the 24 GPS satellites orbiting the planet. 
The GPS Ranger is a rugged handheld computer with a built-in GPS 
receiver. When a user comes within range of a point of interest, the 
GPS Ranger will automatically present or ``trigger'' a multimedia file 
that has been stored in the unit to correspond with that location. This 
file can be audio, video, text, animation, historical photos, music, or 
any combination thereof.
    BarZ Adventures offers everything needed to create a complete 
educational, entertaining and accessible interpretive tour solution, 
including custom hardware, software and multimedia content creation. We 
work with clients in varying degrees to utilize their existing 
interpretive content and media holdings to create or assist them to 
create their GPS Ranger tours. For someone comfortable in developing 
multimedia content, they will find that developing a GPS Ranger tour is 
neither difficult nor expensive since we use industry standard 
multimedia content creation tools.
    BarZ Adventures can create walking, driving, or boating tours for 
any location in the world, for any demographic and in any language. 
This also means we can create tours to address any disability.
    GPS Rangers are currently deployed (through cooperating 
associations and concessionaires within the resource, unless otherwise 
noted) at:
    <bullet>  Martin Luther King Jr. National Historic Site
    <bullet>  Vicksburg National Military Park
    <bullet>  Death Valley National Park
    <bullet>  Cedar Breaks National Monument
    <bullet>  Shenandoah National Park
    <bullet>  Independence National Historical Park (through the 
Independence Visitor Center Corporation)
    <bullet>  Zion National Park (through an independent tour operator)
    <bullet>  Bryce Canyon National Parks (through an independent tour 
operator)
Please See Image 1 in Exhibits Attachment
    In addition to National Parks, GPS Rangers are currently available 
at zoos and city walking tours, both domestically and internationally.
The GPS Ranger Provides Support for ADA
    During the product development stage, BarZ Adventures met and 
presented the GPS Ranger technology to the leaders at Harpers Ferry 
Center, the interpretive media center of the NPS. During the 
presentation, I was asked about ADA compliance. At their strong 
encouragement and at an expense completely bore in-house, BarZ embarked 
on developing the technology to support ADA guidelines.
    The GPS Ranger system now allows consistent interpretive and 
guiding information to be delivered to all, regardless of ability or 
disability, which can be utilized to support ADA compliance efforts in 
a number of capacities.
The GPS Ranger Offers Digital Signage
    The GPS Ranger is proficient in helping those with physical 
disabilities by highlighting availability and locations of accessible 
tools and amenities in outdoor developed areas. As new construction and 
alterations are made to Public Lands such as the addition of wheel 
chair accessible parking, picnic tables, fire rings, camping spaces, 
ramps, restrooms, etc., communication of such amenities is easily and 
accurately communicated to visitors on the system's GPS activated maps. 
Electronic presentation of facilities information allows users to drill 
down into menus easily for greater detail.
Please See Image 2 in Exhibits Attachment for example
    In line with proposed guidelines (T321.2), trail signage describing 
the running slope, cross slope, clear tread width, surface type, trail 
length, trail elevation (at trailhead); and maximum elevation attained 
can all be entered into the GPS Ranger platform database, communicated 
to visitors both on location or on demand, and can be updated as needed 
instantly and cost-effectively as facilities development evolves.
    The back-end system of the GPS Ranger allows approved 
administration to log into the protected Central Editing Facility and 
update content quickly with the click of a mouse. Information is 
updated nightly to all of the GPS Ranger units (as they are stored and 
charging on the venue rack) or a manual sync of new information can be 
instituted during the day if important updates need to be reflected on 
the devices for visitors to see immediately. The low-cost and ease of 
updates allows information to be communicated to visitors without the 
long lead time of ordering physical signage or brochures and without 
the substantial expense.
    The digital platform of the GPS Ranger system allows powerful 
information, such is available from the ``National Parks: Accessible to 
Everyone'' online resource, to be delivered dynamically when and where 
it is most needed, as disabled visitors are out experiencing America's 
Public Lands. Information is power and readily available accessibility 
information will further empower all Americans to take advantage of 
this country's vast outdoor developed and recreational areas.
The GPS Ranger Supports Other ADA Efforts
    The GPS Ranger supports accessibility for the deaf and the hard of 
hearing through the use of captioning and sign language. Interpretive 
information, facilities advisories and any other audio content can be 
delivered through captioning and/or ASL to deliver functional 
equivalency and equal access to such content. The time consuming and 
often costly task of securing sign interpreters is by-passed by 
offering an electronic interpretive tool that can communicate with 
everyone, regardless of ability or disability.
    BarZ Adventures is committed to expanding accessibility through its 
products and has partnered with CSD (Communication Service for the 
Deaf) to bring deaf and hard of hearing friendly tours to venues across 
the nation.
    According to Rick Norris of CSD (from an Associated Press article 
related to the Independence National Historical Park GPS Ranger tour in 
ASL), ``There are 28 million people who could conceivably benefit from 
this. (They) are looking at this to be something that could catapult or 
launch a nationwide trend, where a lot of our national parks or zoos, 
anything with a guided tour, would have this sort of technology,''
Please See Image 3 in Exhibits Attachment
    The GPS Ranger also delivers consistent messaging to the visually 
impaired with full audio description that is triggered automatically 
based on location of the user. The GPS Ranger has been approved by the 
National Center on Accessibility and the National Association of the 
Deaf for its ability to meet the needs of visitors with disabilities.
The GPS Ranger Does Not Undermine Preservation Goals
    The GPS Ranger system is a completely non-invasive interpretive 
solution. The system does not require any additional signage or 
waypoints, nor does it require any special antennas or other technology 
infrastructure for system deployment and repetitive usage by visitors.
    Signage is subjected to the elements and can be costly to maintain 
and update with new information, not to mention the degenerative 
effects which excessive signage can have on the scenic beauty of Public 
Lands.
Please See Image 4 in Exhibits Attachment
    The GPS Ranger platform simply utilizes the existing GPS signals 
that are fully operational in all of our Public Lands. GPS Ranger 
systems utilized to deliver on-site information as digital signage 
relieves the significant expense of physical signage purchase, 
installation and maintenance and helps to maintain the unfettered 
beauty of outdoor areas.
The GPS Ranger is the Better Way to Offer Equal Access to Public Lands
    The GPS Ranger can be programmed to meet federal goals for full 
access to Public Lands for all visitors.
    In response to the NPS's media centers request and at our own 
expense, BarZ Adventures developed the first GPS Ranger captioning tour 
at Martin Luther King Jr. National Historic Site in 2007. Understanding 
the importance of the need, we initiated the creation of full 
captioning and American Sign Language tour versions as part of our 
installation of the Independence National Historical Park tour. At our 
expense, we decided to add the ASL tour version to prove that the GPS 
Ranger can support ADA statutes and to set the bar for accessibility 
for interpretive information.
Please See Image 5 in Exhibits Attachment
    Throughout the Public Land system there are a variety of tour 
solutions on offer which are not ADA compliant. At Ellis Island and 
Statute of Liberty, Alcatraz and at the USS Arizona, to name a few, 
there is an audio-only solution in place that doesn't address ADA 
statutes. Furthermore cell phone tours are becoming more popular and 
common. The Boston Freedom Trail, Valley Forge, and the National Mall 
are just some of the few parks which use cell phone tours to deliver 
interpretive content which is not equally accessible to all visitors 
and which are not ADA compliant. Earlier this month, we received an 
open RFP for an audio-only museum tour for the Smithsonian American Art 
Museum which is also not in line with ADA guidelines for providing 
equal access to all visitors. These examples illustrate that venues and 
resources in both the public and private sector need guidance in 
expanding access for people with disabilities.
    The GPS Ranger is a cost effective communications platform not only 
for accessibility reasons but also designed to support the interpretive 
mission of the Parks by providing rich and meaningful content at the 
point of interest of the visitor. As mentioned earlier, the GPS Ranger 
system can be programmed to support multiple ``tours'' both for the 
accessible market as well as for the general domestic and international 
visitor to meet the interpretive goals of the resource. ``Universal 
design'' allows the Ranger unit to be used to enrich the experiences of 
all visitors to Public Lands--the young or old with age-appropriate 
content, the disabled with accessibility specific information or the 
non-English speaker with content delivered in any kind of foreign 
language or ASL.
    Traditionally, supporting accessibility is difficult and expensive 
in the Public Lands. A few weeks ago, a BarZ Adventures representative 
was at the Grand Canyon in a meeting with the Chief of Interpretation. 
While there, a request for a sign interpreter was made so that a deaf 
guest could visit the park and experience the interpretive messages 
like other visitors to the park. In this circumstance, the NPS staff 
reported that finding personal sign interpreters for their deaf 
visitors is complicated due to timelines and the logistics of their 
remote location, as well as costly to secure and not 100% reliable.
Closing Thoughts and Way Forward
    The GPS Ranger with sign language, captioning or audio description 
offers multiple benefits. It saves the park or resource the on-going 
expense of providing sign interpreters; it allows the deaf and visually 
impaired visitor to arrive without extended pre-planning and tour the 
park on their own schedule and at their own pace. A consistent and 
quality message is always delivered and there is never of the problem 
of ``no-shows'' of hired interpreters. Furthermore it minimizes the 
amount of special way-finding signs that are needed to be constructed 
and maintained to accommodate these audiences, while also delivering 
more detailed and up-to-date data about accessibility features in the 
field where it is most needed and valued.
    In nearly all cases, the content creation, set-up and installation 
costs of the GPS Ranger system can be recouped or off-set within a 
matter of months.
    The GPS Ranger platform can be purchased by the Park Service or 
resource administration and rented to park visitors for a fee or 
donation, or borrowed free of charge. The systems can be underwritten 
by donors such as the National Park Foundation or corporate sponsors. 
Additionally, GPS Ranger systems can be leased by cooperating 
associations or concessionaires and then rented to park visitors for a 
low daily fee. Today the GPS Ranger tour is available to National Park 
visitors for about the same cost as a movie ticket.
    The GPS Ranger is proven technology that is enjoyed and valued by 
visitors, and that is ready to be deployed now to address accessibility 
issues and expand access to federal lands for people with disabilities.
    In closing, I hope that this committee will take a leadership role 
to address access in Public Lands. The position you take will have a 
trickle-down effect outside of the federal land system and effect 
decisions at venues such as the Smithsonian which is currently 
considering an audio-only tour. State parks, theme parks and 
attractions, zoos, arboretums and gardens, city walking and college 
campus tours will all be affected by the decisions and guidance that is 
handed down from this committee in regards to accessibility to outdoor 
spaces and venues across the United States.
    I welcome your comments or questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Now, Mr. David Startzell, Executive Director, Appalachian 
Trail Conservancy. Thank you for being here. I look forward to 
your testimony.

     STATEMENT OF DAVID N. STARTZELL, EXECUTIVE DIRECTOR, 
                 APPALACHIAN TRAIL CONSERVANCY

    Mr. Startzell. Good morning, Mr. Chairman and Members of 
the Committee. I am kind of a simple footpath guide, but, 
actually, I would like to make use of a little technology this 
morning and rely on PowerPoint because it will allow me to best 
illustrate some examples of accessible design that we have 
incorporated along the Appalachian National Scenic Trail.
    Just some quick facts. A question came up earlier about the 
length of the trail. It is actually just shy of 2,200 miles, 
extending from Maine to Georgia, generally following the crests 
of the Appalachian Mountain chain. It was developed initially 
in the 1920s and 1930s, and it is almost entirely designed, 
constructed, and maintained by volunteers.
    Some characteristics about the Appalachian Trail are 
somewhat relevant to the discussion today because some of those 
characteristics do conspire to add to the challenges of 
incorporating accessible design. Many of these characteristics 
are also representative of a lot of other backcountry trails in 
the United States, such things as primitive character, limited 
motor vehicle access, significant topographic variation, many 
natural barriers, and so forth.
    Notwithstanding those challenges, we have gained some 
experience, in the last eight years or so, in developing some 
accessible segments of the trail, as well as some accessible 
backcountry campsites. The first of those was in Falls Village 
in Western Connecticut. This was developed in the year 2000. It 
is about a one-mile loop trail, about half of which serves as 
the right-of-way for the Appalachian Trail, generally following 
the banks of the Housatonic River there. A recent count 
indicated a visitation of about 23,000 visitors along that 
segment in the year 2005.
    Our largest project to date is in Western New Jersey, in 
Vernon Township, involving the Pochuck Creek wetland area. It 
is a very substantial wetland area. There, we developed a 
boardwalk across the wetland, 6,000 feet in length, as well as 
a unique suspension bridge. We adapted a new system for us, 
using Chance helical piers. The advantage of those is that they 
are lightweight, and they can be sunk to varying depths. In the 
case of the Pochuck, some of those were sunk to a depth of 40 
feet. This project was installed almost entirely by volunteers.
    Another example of a boardwalk design, again, using the 
helical pier system, as well as a land-based portion, is in 
Killington, Vermont, an area called Thundering Falls. Those two 
sections eventually lead to what the Access Board would call 
the ``primary feature,'' in this case, Thundering Falls, 
appropriately enough. This was just opened last year.
    Unlike the other examples, this is a more highlands area, 
the Osborne Tract in an area called Shady Valley, Tennessee. 
This would be in Mr. Duncan's back yard. There, we developed a 
.7-mile graded and graveled pathway. This is not a loop. It 
involves a turnaround at the end. Technically, that bench does 
not meet standard because there is no back support, but I think 
we have since added that.
    The next example, actually, is not built yet, and I did not 
include this solely for Mr. Hinchey's benefit, but this in Bear 
Mountain State Park. I included it, rather, because this 
ultimately will probably enjoy some of the highest visitation 
we will see anywhere along the Appalachian Trail. It is a very 
popular section, only 40 miles from New York City. The summit, 
which is where we are developing the accessible segment, 
currently gets visitation of about a half a million people per 
year.
    Just some general conclusions. In terms of our experience 
to date, these kinds of accessible trail segments seem to work 
best where we have proximate road access, where the topography 
is fairly forgiving, and so forth.
    Conversely, it is much more challenging. These are not 
absolutes, but it is more challenging where we do not have good 
road access, where there are a lot of barriers where there is 
significant topographic variation and where we have 
conflicting-use problems.
    I have not spoken much this morning about overnight 
campsites, but we have, again, had some experience with those. 
At this point, we have developed perhaps six or eight, 
primarily in our southern region, in the National Forest 
System. It has been our experience that we can pretty easily 
modify our shelters or lean-to's to accommodate transfer from 
wheelchairs. We can also provide toilet enclosures or privies 
that can accommodate wheelchair access, although it does 
require a little larger footprint, a little larger enclosure.
    But in none of those instances that I am aware of do the 
trails leading to those campsites or the trails connecting 
those elements currently meet standards.
    And, last, I am sure this is a familiar mantra to this 
Committee, but if we seriously want to advance opportunities 
for access on our public lands, there is a need for more 
training, more resources for trail construction and 
maintenance, and more administrative support. Thank you.
    [The prepared statement of Mr. Startzell follows:]

         Statement of David N. Startzell, Executive Director, 
                     Appalachian Trail Conservancy

    Dear Mr. Chairman and Members of the Subcommittee:
    My name is David N. Startzell and I am the executive director of 
the Appalachian Trail Conservancy (ATC). I have been asked to serve as 
a witness today to discuss the issue of access for persons with 
disabilities to outdoor environments, especially those administered by 
the various Federal land-management agencies, and to share some 
examples from my organization's experience in designing and 
constructing accessible trail segments and overnight camping areas 
along the Appalachian National Scenic Trail (ANST), even in some rather 
challenging and remote environments.
    By way of background, the Appalachian Trail Conservancy (formerly 
known as the Appalachian Trail Conference) is a private, nonprofit, 
educational organization founded in 1925 to coordinate private-citizen 
as well as public-agency efforts to design, construct, and maintain the 
Appalachian Trail and to conserve and manage adjacent lands and 
resources. ATC has a membership base of approximately 37,000 
individuals and also is a federation of 30 affiliated hiking and outing 
clubs throughout the eastern United States, each of which maintains an 
assigned segment of the trail.
    The Appalachian Trail is a 2,176-mile footpath extending from Maine 
to Georgia through 14 states generally following the ridgelines and 
major valleys of the Appalachian Mountains range. The A.T., as it is 
known, was initially constructed between 1923 and 1937 and has existed 
as a continuous long-distance footpath since that time. In 1968, the 
trail received Federal recognition through the National Trails System 
Act as the nation's first national scenic trail and today is 
administered as a unit of the National Park System. Notwithstanding its 
Federal status, from its earliest beginnings, the Appalachian Trail and 
its associated facilities (e.g., bridges, shelters, privies, signs, 
etc.) has been constructed and maintained largely by a corps of 
dedicated volunteers that today numbers more than 6,000 individuals 
who, each year, devote approximately 200,000 hours of labor on a wide 
range of trail-, resource-, and visitor-management programs and 
services.
    With respect to the issue before the Subcommittee today, it should 
be noted that the Appalachian Trail Conservancy has considerable 
experience, both with the accessibility guidelines that have been under 
development by the U.S. Architectural and Transportation Barriers 
Compliance Board (aka-Access Board) and with the ``real world'' 
implementation of those guidelines in the field at various points along 
the Appalachian Trail. Two representatives of the Conservancy--myself 
and also Peter Jensen, a former member of our board--served as an 
alternate and as a member, respectively, on the Regulatory Negotiation 
Committee that was established by the Access Board in 1997 to explore 
the development of appropriate guidelines for outdoor developed areas. 
More recently, representatives of ATC also actively participated in the 
formulation of the USDA Forest Service's guidelines, including the 
Forest Service Trail Accessibility Guidelines (FSTAG) and the Forest 
Service Outdoor Recreation Accessibility Guidelines (FSORAG), which 
were adopted by that agency in 2006.
    Since the late 1990s, ATC and its affiliated clubs have strived to 
apply the emerging guidelines in a number of areas along the 
Appalachian Trail, including a number of significant trail-
reconstruction projects where accessible segments and/or facilities 
have been successfully incorporated into the design. ATC also has 
provided training to members of its staff and to volunteers within our 
affiliated-club network about the Forest Service and Access Board 
guidelines and related issues and has developed a design guide: 
Increasing Opportunities for Access on the Appalachian Trail, drawing 
on a number of case studies.
    With reference to the proposed guidelines, our participation in the 
Access Board's regulatory-negotiation process proved to be 
illuminating. As an outgrowth of that participation, we fully 
appreciate the challenges faced by the Access Board and by the Federal 
land-managing agencies in attempting to develop an overarching 
framework for the application of accessibility guidelines in outdoor 
environments. We also gained a heightened appreciation for the 
challenges faced by persons with disabilities in attempting to access 
outdoor environments. Initially, during the early stages of the 
regulatory-negotiation process we, along with a number of the Federal 
agency representatives, tended to favor the application of different 
standards based on physical characteristics or setting (e.g., front 
country/back country, Recreation Opportunity Spectrum or ROS 
classifications). Ultimately however, we joined the majority of our 
colleagues on the committee in embracing the so-called ``exceptions-
based'' approach reflected in the committee report and in the current 
draft guidelines. Our reasons were two-fold: (1) The exceptions-based 
approach appeared to offer the greatest opportunity to infuse 
accessible design into the trail-design and construction decision-
making process; and, (2) an exceptions-based approach seemed less 
arbitrary than some other approaches (e.g., mandated percentages) and 
also permitted reasonable flexibility to the designer or land manager 
to adapt to the prevailing conditions of the setting. The experiences 
we have gained in the intervening years since the regulatory-
negotiation process in applying an exceptions-based approach have 
supported this conclusion.
    During the regulatory-negotiation process we did, however, strongly 
advocate for several of the four conditions for exception incorporated 
in the current draft guidelines and we continue to support those 
conditions as both reasonable and essential in order to adapt to the 
widely varying conditions encountered in outdoor versus built 
environments. Consider, for example, Condition 4, which permits 
exceptions from the technical provisions of the guidelines where 
compliance is not feasible and/or practicable due to physical 
characteristics of the terrain or due to prevailing construction 
practices. Such flexibility is essential in many ``backcountry'' areas 
and along many trails where trail segments often are located in remote 
areas and where physiographic characteristics of the recreational 
setting can impose significant constraints. Also, while many trails are 
situated on Federal lands, many of them are constructed and maintained 
not by Federal-agency personnel but rather by volunteers who rely on 
hand tools far more than mechanized or motorized equipment and who, for 
the most part, make use of native soil and other materials (e.g. stone, 
logs) rather than imported materials.
    ATC also supported the limitations on the applicability or 
``scope'' of the guidelines solely to trails or trail segments 
connecting to designated trailheads or to other accessible trail 
segments.
    Since the regulatory-negotiation process, ATC has applied the 
emerging guidelines to a number of trail-reconstruction projects in 
each region of the Appalachian National Scenic Trail and those projects 
have resulted in meaningful recreational opportunities in a variety of 
settings for persons with disabilities--particularly those with 
mobility impairments. Some examples of a number of those projects may 
help illustrate some of the challenges as well as opportunities that 
exist along long-distance and/or backcountry trails in general.
    Falls Village, Connecticut: This was the first trail-reconstruction 
project undertaken by ATC and the Connecticut Chapter of the 
Appalachian Mountain Club in 2000. The project involved the 
construction of an approximately 1.1-mile loop trail, a portion of 
which serves as the Appalachian Trail, along the banks of the 
Housatonic River. Unlike most sections of the Appalachian Trail, road 
access was readily available to the site, which permitted the use of 
earth-moving equipment (e.g. Bobcat) for the grading work required as 
well as to transport the gravel surfacing material. Drainage culverts 
were installed using more traditional construction practices (e.g. 
volunteers, hand-tools). The extent of grading also was minimized 
because portions of the trail were situated along the route of a former 
woods road. The project required approximately two years from design to 
completion and was accomplished at a cost of approximately $60,000. A 
traffic counter installed at the site in 2005 recorded 23,000 visitors 
along this section in that year.
    Pochuck Creek, Vernon Township, New Jersey: Our largest accessible 
trail-reconstruction project to date, this project involved the 
construction of more than one mile (6,000 feet) of elevated boardwalk 
over the largest wetland area along the entire length of the 
Appalachian Trail as well as the construction of a unique 144-foot 
suspension bridge over the main channel of Pochuck Creek. Due to the 
unusually deep and unstable peat soils encountered in this wetland, the 
boardwalk portion required the use of a support system previously 
unheard of along the Appalachian Trail: Chance helical piers. The 
advantage of this anchoring and support system is that the length of 
the piers can be adapted to a wide range of soil depths. In this 
instance, some piers were driven to depths of as much as 40 feet. 
Following many years of planning, the project required more than five 
years to complete and was carried out almost entirely by volunteers 
from the New York-New Jersey Trail Conference, other local partners, 
and several ATC seasonal trail crews. Total costs for the project were 
approximately $500,000. This section was opened for public use in 2002.
    Thundering Falls, Killington, Vermont: Another wetland-area 
project, this trail-reconstruction project affected a total of about 
two miles of the Appalachian Trail, not all of which could comply with 
accessibility guidelines due to the steep and rocky terrain that rises 
quickly above the Ottaqueechee River and adjacent wetland. The project 
did, however, incorporate an accessible segment including 700 feet of 
elevated board walk, again using the helical-pier system, as well as 
approximately 500 feet of gravel-surfaced tread leading to the base of 
the ``primary feature''--Thundering Falls, a 100-foot waterfall, the 
sixth largest in the State of Vermont, situated within the proclamation 
boundaries of the Green Mountain National Forest. Because motor vehicle 
access to the site was limited to the far side of the wetland area, 
most construction materials were transported to the site by hand or 
push cart while gravel-surfacing material for the land-based portion of 
the project was transported via drywall buckets using an elaborate 
system of cables and winches spanning hundreds of feet down a steep 
hillside. The project required three years to complete and was 
constructed primarily by volunteers and seasonal employees of the 
Vermont Youth Conservation Corps and the Green Mountain Club at a cost 
of approximately $200,000. This trail segment was opened for public use 
in 2007.
    Osborne Farm, Shady Valley, Tennessee: Unlike the preceding 
examples, this project is situated at higher elevations (approximately 
3,500 feet) in an open meadow. Total length of the project is .7 mile. 
The trail tread was excavated to a depth of six inches, lined with 
permeable geo-textile material, and then surfaced and crowned with a 
mixture of crushed-rock and rock dust. The trail begins at a parking 
area/trailhead where a special stile design was constructed in order to 
permit wheelchair access while discouraging all-terrain vehicle access. 
The trail gradually rises to the height of land, terminating in a 
seating area and turn-around, affording sweeping 360-degree views of 
the surrounding mountain lands including distant views of Mount Rogers 
in the neighboring Virginia highlands. The stile, bench, and wooden-
post trail markers were installed by volunteers while the excavation 
and surfacing of the trail tread was completed by a contracted trail-
construction firm using mechanized equipment. Total cost, excluding 
about 120 hours of volunteer and staff labor, was approximately 
$20,000. The trail was opened for public use in 2006.
    Bear Mountain State Park, New York: This project is still a work-
in-progress but ultimately will represent one the largest and most 
challenging trail-reconstruction projects along the Appalachian Trail 
in the past two decades, affecting a total of approximately four miles. 
Initial planning for the project began in 2004 while construction of 
the first of three phases began in 2006. Situated about 40 miles from 
New York City, this trail segment is among the most heavily visited 
sections of the Appalachian Trail, with an estimated 200,000 annual 
trail visitors and as many as one-half million visitors to the summit 
of Bear Mountain. Highly technical and labor-intensive tread-
construction work is required--much of it involving cutting and placing 
more than 700 rock steps and drainage improvements (e.g. waterbars, 
culverts)--often in steep terrain, with limited or no motor-vehicle 
access. Construction will be carried out through a combination of 
volunteer and contracted labor. Notwithstanding the challenging 
terrain, from the initial stages of planning, the designers have sought 
to incorporate an accessible portion, particularly at the popular 
summit, which will be the third and final stage of construction. The 
accessible trail segment will be approximately one-half mile (2,465 
feet) in length, extending from an existing parking area accessible by 
a park road through relatively level terrain with shallow soils and 
numerous rock outcroppings. Total elevation gain is anticipated to be 
1080 feet. Construction costs for the overall project are anticipated 
to exceed $1 million, while the accessible portion on the summit is 
projected to cost approximately $120,000 (excluding volunteer labor).
    Campsites and Associated Facilities: In addition to the above-
referenced trail-construction or ``reconstruction projects, ATC and a 
number of its affiliated clubs have constructed or reconstructed 
perhaps a dozen shelters and privies in the past five to six years 
designed to meet U.S. Forest Service accessibility guidelines. 
Campsites associated with the Appalachian Trail generally are sited 
some distance away (e.g. several hundred feet to as much as one-half 
mile)--from the main footpath and are connected by a side trail. 
Campsite facilities typically include a rustic shelter (e.g.-three-
sided lean-to) constructed of rock, logs, or dimensional lumber; a 
toilet enclosure (e.g.-privy); and a water source (usually a natural 
spring). Such sites also may include a limited number of cleared tent 
sites and/or tent platforms; a rustic, dry-stone fire ring, and, 
occasionally, a picnic table. The majority of these designated 
campsites are not accessible by road and, for this reason, most 
campsite elements are constructed on-site with native materials or from 
prefabricated components that can be transported by volunteers or, 
occasionally, by pack animals or even helicopters. To the best of my 
knowledge, none of the side trails leading to these sites, or the 
trails connecting the various campsite elements within these sites, 
meet current accessible-trail guidelines, nor do they meet the 
specifications for an ``outdoor recreation access route'' (ORAR). Many 
campsites are situated several miles from the nearest trailhead and 
thus are likely to be beyond the reach of most wheelchair-dependent 
users.
    While there are a wide range of designs among the more than 260 
Appalachian Trail shelters, most of them, regardless of construction 
material, can be adapted to provide improved access for persons with 
mobility impairments, primarily by providing the correct height and 
depth to permit transfer from a wheelchair to the sleeping platform. 
Toilet enclosures or privies require a greater degree of modification 
in order to provide additional turning space within the enclosure. A 
ramp also may be required in order to facilitate wheelchair entry and 
egress. This is particularly true with bin-composting privies, which 
often require the privy enclosure to be elevated several feet above the 
prevailing ground surface. For these reasons, the physical 
``footprint'' associated with accessible privies typically is larger 
than our more common privy designs and special attention must be paid 
in order to retain a rustic character for these larger structures.
    Conclusions: Many characteristics associated with the Appalachian 
Trail may be fairly representative of many other primitive or 
backcountry trails. Those characteristics include:
    <bullet>  Limited to non-existent motor-vehicle access;
    <bullet>  Many sections that make use of existing surfaces (e.g. 
bedrock, talus slopes) or simply are created by foot traffic rather 
than a constructed trail tread;
    <bullet>  A primitive character with minimal ground disturbance or 
surface improvements;
    <bullet>  Challenging topographic conditions with frequent and 
significant elevation gains and losses;
    <bullet>  Limited soil depths and frequent natural barriers;
    <bullet>  Widely variable weather and seasonal conditions;
    <bullet>  Infrequent maintenance intervals;
    <bullet>  Substantial reliance on volunteers for construction and 
maintenance;
    <bullet>  Limited access to motorized or mechanized equipment;
    <bullet>  Reliance on simple hand tools;
    <bullet>  Limited financial resources;
    <bullet>  Highly variable skill levels and familiarity with 
accessible design and construction techniques.
    Many of these characteristics are likely to severely limit the 
feasibility or practicability of developing trail segments that meet 
the letter of all of the technical requirements of the emerging 
accessibility guidelines. Indeed, many, perhaps most, trail segments 
are likely to be excluded under the proposed guidelines--either because 
they do not fall within the scoping provisions of the guidelines or 
because they qualify under one of the exception provisions related to 
the technical requirements.
    It also should be understood that in many instances a trail 
constructed to meet accessibility guidelines will be highly 
inconsistent with the primitive character of most backcountry trails. 
The reality is that a constructed footpath, four feet in width, with 
imported surfacing materials, resting intervals, frequent switchbacks 
to accommodate changes in elevation, and various other modifications 
required to meet accessibility guidelines will represent a stark 
contrast to the construction practices commonly employed along 
backcountry trails and with the primitive, minimalist design philosophy 
that has guided trails development for many years. For this reason, it 
is likely that most accessible-trail segments will be developed in less 
remote areas, proximate to road crossings with developed trailheads, 
with greater levels of visitation, where the more intensive design 
standards required for accessible-trail segments are less likely to 
detract from the primitive character of the trail in more remote 
settings or with the recreational expectations of trail visitors.
    Nevertheless, our experience along the Appalachian National Scenic 
Trail suggests that it is feasible to provide meaningful opportunities 
for outdoor recreation for persons with disabilities at selected 
locations. Over time, as more accessible sections are developed, 
hopefully it will prove feasible to provide a range of recreational 
experiences for people with disabilities that are at least 
representative of the range of experiences available to non-disabled 
trail visitors. In addition, even where it is not feasible or 
practicable to meet the letter of the technical provisions, there often 
are opportunities to incorporate universal design elements that improve 
access for people with mobility limitations.
    Recommendations: While the conditions encountered along Appalachian 
National Scenic Trail may be representative of other primitive or 
backcountry trails, the knowledge and experience gained by the 
Appalachian Trail Conservancy and its partners during the past ten 
years in accessible design and construction is not representative. As 
an outgrowth of our participation in the Access Board's regulatory-
negotiation process, as well as the development and implementation of 
the U.S. Forest Service's accessibility guidelines, ATC and a number of 
its affiliated clubs have cultivated a familiarity with the 
complexities of this issue that is atypical of many private, non-
profit, volunteer-based trails organizations. Indeed, our experience 
suggests that many employees in the Federal land-managing agencies also 
lack even a basic understanding of the principles of universal-access 
design, let alone familiarity with the specific provisions of the 
emerging Access Board guidelines.
    If the Access Board, the land-managing agencies, and the Congress 
truly seek to expand access for people with disabilities to federally-
administered outdoor recreation areas, there must be a stronger 
commitment, including the allocation of sufficient financial resources, 
to provide adequate training to appropriate Federal personnel and to 
their NGO partners.
    Similarly, a significant financial commitment may be required in 
order to compensate for the increased costs associated with many 
accessible-trail projects. Our experience suggests that the cost 
implications of designing and building to accessible standards can be 
considerably greater as compared to our traditional construction costs, 
primarily due to the frequent necessity to import surfacing materials, 
to utilize mechanized or motorized equipment, and/or to contract for 
specialized, professional design and construction services. Moreover, 
based on our limited experience to date, there are strong indications 
that accessible-trail segments often require more frequent maintenance 
intervals in order to maintain a ``firm and stable'' tread, to maintain 
appropriate cross slopes and tread widths, and to eliminate protruding 
objects such as tree limbs or temporary barriers such as fallen trees. 
At a time when a significant trail-maintenance and trail-construction 
backlog exists across all Federal agencies, these financial challenges 
should not be underestimated.
    Finally, it should be understood that there may be indirect 
administrative impacts associated with accessible-trail projects. In 
addition to the need for training noted above, there also are likely to 
be increased law-enforcement requirements. The reality is, once a trail 
is designed to provide improved accessibility to people with mobility 
impairments--especially wheelchair-dependent visitors--the trail also 
can become more accessible to other users and uses, including 
prohibited uses such as all-terrain vehicles, snowmobiles, motorcycles, 
four-wheel-drive vehicles, and mountain bikes. While there are a number 
of design techniques that can be employed to discourage such 
incursions, it nevertheless is likely that an additional monitoring and 
law-enforcement presence may be required in certain areas in order to 
discourage adverse impacts to sensitive natural and cultural resources 
or to the recreational experiences of the users for whom the trail was 
designed to serve.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Before we start moving into questions for the panel, let me 
remind Members that are here and persons in the audience that 
Mr. Lee has brought some of his GPS Ranger devices with him, 
and he will afford us the opportunity to have a hands-on 
demonstration at the end of the questioning period. Thank you 
for that, sir.
    Mr. Startzell, you mentioned the suspension bridge, the 
Pochuck----
    Mr. Startzell. The Pochuck, yes, sir.
    Mr. Grijalva. Are you seeing new technologies, as they 
emerge, or are emerging, being helpful in dealing with the 
accessibility issues that are sometimes difficult in primitive 
areas, wilderness areas?
    Mr. Startzell. Yes, we are, in two respects. First, as I 
noted in the slides, our tendency has been to place primary 
reliance on hand tools and on volunteers, but we do have some 
relatively new equipment in our arsenal. For example, the 
helical pier system that I described is a fairly new 
innovation, at least, for us, and that also requires a special, 
motor-driven driver to sink those piers.
    We also currently make use of what is called a ``Cobra rock 
drill'' for cutting rock surfaces and things like 
steppingstones and so forth.
    Of course, we are also seeing some technology advances with 
mobility devices themselves: wheelchairs, for example, that are 
more capable of varied-terrain travel and that sort of thing.
    Mr. Grijalva. One other question before I move on to the 
other panelists: I think, in your testimony, you mentioned the 
high cost for the measures that you have been involved with, 
retrofitting, specifically, accessibility projects.
    Other witnesses indicated that if these are done at the 
initial point of planning on a particular project that the cost 
is nominal, at best. I assume that because most of the work you 
are doing is retrofitting an existing trail that that cost 
would be higher.
    But you also made a good point, I think, at the end about 
the potential increased maintenance and enforcement costs. 
Could you maybe expand on that last frame that you had up 
there?
    Mr. Startzell. Certainly, and I should note that I do not 
necessarily agree with the observation that the cost may be 
only incrementally higher. In a case like the Pochuck 
boardwalk, for example, we had to construct the boardwalk, in 
any event, and so it just became a question of perhaps a little 
wider surfacing and some edge protection. So, in that instance, 
the increase in cost was relatively minor.
    Where we see the biggest increase in cost is in an area 
where we would normally build only with hand tools and not 
import surfacing materials. If, instead, you elect to do that, 
then the costs are going to go pretty high, but if you looked 
at the total cost numbers, and I am meaning no disrespect to my 
public agency colleagues, our construction costs are pretty low 
relative to most Federal agencies, again, because we place such 
great reliance on volunteers.
    There are maintenance issues because, particularly in some 
of the gravel surface sections that I illustrated, we have to 
go back more frequently in order to maintain the width, as well 
as to assure that the drainage culverts and so forth are 
working properly because, otherwise, we can fairly quickly 
deviate from some of the guidelines with respect to slope, 
cross-slope drainage and, particularly, firm and stable 
surfacing. So there is a maintenance impact, at least in terms 
of frequency of maintenance.
    Mr. Grijalva. Thank you. I do not have any questions, Mr. 
Deal, but just to acknowledge what I thought was a very good 
point you made, in terms of accessibility to the public lands 
and the outreach and programming that should be done, or is not 
being done, with the degree that you would like or others would 
like regarding the outreach and programming for veterans with 
disabilities. I thought that was a very important point, and I 
appreciate that very much.
    Mr. Ray, in your written testimony, you allude to, or speak 
to, a National Council on Disability Report on The Effect of 
Wilderness Designations and the Ability of Individuals with 
Disabilities To Use and Enjoy the Lands. Can you briefly share 
with us what some of those findings were in the report?
    Mr. Ray. Unfortunately, I do not have that report with me. 
I was not involved with that study myself during my work with 
Wilderness Inquiry, but I could try to get a copy of that 
report to you, either through the National Council on 
Disability or through a PDF file, I believe, on our website. We 
might be able to get that for you.
    Mr. Grijalva. Thank you.
    Mr. Ray. Sorry.
    Mr. Grijalva. That is OK. Mr. Pearce, any questions?
    Mr. Pearce of New Mexico. Thank you, Mr. Chairman, and, Mr. 
Ray, I would take a copy of the same report. The Chairman asked 
my question also.
    Mr. Ray, you deal with people who call at random about 
accessibility at National Parks. How often do you have to hang 
up and say, ``Well, we will try the next park''? In other 
words, all of the 391 parks, can you call them at random and 
say, ``I have a group of people with accessibility problems,'' 
and they say, ``Oh, good. We are all set up,'' or does that not 
occur so often?
    Mr. Ray. It does not occur so often. We have a good 
relationship with the land management groups. I believe, when 
we schedule our programs, a lot of those reservations are made 
well in advance if we need space.
    Mr. Pearce of New Mexico. Do you feel like you could call 
any of the 391, and they would say, ``Yes, we are accessible,'' 
in great amounts?
    Mr. Ray. No, no, I do not believe so. I think we can call 
and get a positive response that will provide you space, but, 
as I said in my testimony, we are not wholly dependent on 
accessible facilities to do what needs to get done. In fact, 
just as an example, I mentioned toileting as an issue. If we 
happen to know, because of our research, or perhaps we have 
been to these areas to scout them as potential trip 
environments, if the toileting is not accessible, we will take 
adaptive equipment, folded toilet seats, and create a shelter 
with tarps, a cat hole, you know, in the woods someplace to 
accommodate our individuals who may need that accommodation.
    Mr. Pearce of New Mexico. I guess I am trying to get an 
understanding of the culture inside the Park Service because, 
again, based on our hearing a couple of years ago, I felt that 
there was almost a dismissal of the needs of the handicapped. 
Have you seen an improvement over the years, or is it 
basically----
    Mr. Ray. Yes, I think so. I think so. We have had a great 
partnership, as far as I know, with the Park Service.
    Mr. Pearce of New Mexico. Mr. Deal, I am probably going to 
have the same question for you on access. How many of the parks 
are accessible, those that offer shooting, whatever, but I am 
going to get to that in just a second.
    Mr. Ray, do you all take motorized wheelchairs?
    Mr. Ray. No. It is impractical for us to take motorized 
wheelchairs, not only because of the weight, but, from a 
practical standpoint, we do not have anyplace to plug them in 
to recharge the batteries. So what we do provide, however, if 
an individual does not have a standard wheelchair, a 
nonmotorized wheelchair, to bring along, we do have that 
equipment that we can bring along and loan. Obviously, it is 
not the best alternative because the individual using that 
motorized chair may not be able to operate that nonmotorized 
chair independently.
    Mr. Pearce of New Mexico. Mr. Startzell, do you all let 
motorized wheelchairs on the Appalachian Trail?
    Mr. Startzell. We do not preclude them, and could not, 
under current law, if they are a mobility-assistance device, as 
defined by ADA and ABA. The question, of course, would be where 
it is actually feasible to use them, but, no, they are not 
prohibited.
    Mr. Pearce of New Mexico. The reason I am asking is because 
they are prohibited in National Parks. They were thrown off, 
people on Segways. A double-amputee was thrown off of one of 
the monuments here in Washington because they said, as a 
motorized wheelchair, that the DOT had declared those to be 
motorized vehicles. So we had, again, the people at the hearing 
who were--off the memorial. I think it was the Lincoln 
Memorial.
    So that is the reason I asked, because I think that, still, 
significant problems in definition exist. We have one of our 
colleagues, Mr. Langevin from Rhode Island, on a Segway, and if 
he is not going to be allowed access because it is motorized, 
then I have a severe problem with that.
    Mr. Deal, if you want to deal with the question, too, that 
would be fine, just the accessibility, the percent of 
facilities that are available, those that have shooting in the 
National Parks; are you comfortable that you can call any at 
random, and they are going to say, ``Yes, we are handicapped 
accessible,'' or do you have to really design the trip in 
advance?
    Mr. Deal. My experiences have been mostly with material 
bases. National Parks; I do not think they are shooting. The 
National Forests, of course.
    What I talked about earlier is you can provide access. You 
can get somebody there. The adaptive equipment that I think is 
needed is the bridge, with the pop-up blinds and the 
Huntmaster, et cetera. We just finished a project in North 
Carolina where every district in North Carolina now has a 
Huntmaster so that it is fully accessible from the mountains to 
the seashore. That is my area of work. The U.S. Forest Service, 
I do not know, sir, or BLM.
    Mr. Pearce of New Mexico. OK. Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman, and thanks for putting 
together this hearing. I am just delighted to hear the emphasis 
on what can be done, with an emphasis on ``can.''
    Clearly, we want to extend the access, enjoyment, and use 
of America's treasures to all, and I spend a fair amount of 
time in my job talking with school boards about IDEA or 
businesses about ADA that are not focusing on what can be done 
but, rather, the cost, and the school boards will say, ``Well, 
we are putting in accessible features for two students. Do you 
know how much we are paying for those students?'' or a 
businessman who will say, ``For ADA, it costs me so much for 
each customer with limited accessibilities.''
    And I say, ``No, you are not spending the money for those 
students or for those customers. You are spending the money to 
advance the American ideal. We do not have categories of 
citizenship in this country. Each American deserves access to 
the full range of rights and opportunities.''
    So I am just delighted, Mr. Chair, that you are holding 
this hearing, and I am even more pleased by the can-do attitude 
that is coming out in the testimony.
    So that is a statement, not a question, but thank you very 
much, Mr. Chairman.
    Mr. Grijalva. Thank you. My one follow-up may be a kind of 
bottom-line question for all of the panelists. States and, I 
mentioned, local communities, in my own experience, local 
government, municipalities, the private sector; they all seem 
to be on the cutting edge, in terms of the use of new 
technologies, taking that can-do attitude that Mr. Holt talked 
about.
    My question is, the Federal agencies that we are talking 
about at this hearing, the progress that they have made; is 
that effort a leading effort, or is it a hindering effort?
    Mr. Ray. That is a tough question because we see so much 
response from our participants who come back again and again to 
our programs, our volunteer base who provide resources, and I 
am not talking just about helping with our endowment or 
whatever. They come in with ideas about how can we assist in 
making adaptive materials that would be practical and useful 
for participants on your trips?
    That said, we have had such a long history in working with 
Department of the Interior folks and the U.S. Forest Service 
that they continue to come to us, even, to ask--involvement and 
perhaps leadership on some of these studies that I mentioned in 
my testimony.
    We have, I think, become a valuable resource to Federal 
agencies and, hopefully, have been able to inform them through 
our example.
    So I guess I would respond that it has been pretty 
symbiotic. I have a lot of pride in what these agencies have 
done to advance accessibility in outdoor areas.
    Mr. Grijalva. Thank you. Anybody that wants to respond to 
it. Mr. Little?
    Mr. Little. Once again, my experience has been very narrow, 
basically, with military bases, and every piece of equipment 
that we have put out there has been done with private 
donations. All of the pontoon boats, the pop-up blinds, and we 
have even put some trailer blinds that are wheelchair 
accessible in Idaho, has been done with private donations. It 
has not cost the Federal government a penny.
    That might be something to think about, down the road, with 
a little funding because it is a lot cheaper to do that than to 
build ground blinds that are going to be destroyed by the 
knuckleheads that go around and think that is fun.
    I also think that some of the agencies are just 
overwhelmed. The spirit is there, but, my goodness, the things 
that are on their plate to get done and to get it done now or 
yesterday is pretty amazing, but there are some grassroots 
organizations out there that are superb. The Appalachian Trail 
folks, the volunteers, they are out there. It is just a matter 
of leadership from above to make it happen.
    Mr. Grijalva. Thank you. Mr. Little, any comments?
    Mr. Little. In my job, I end up talking to theme parks, 
zoos, museums, as well as Federal lands. You asked a very 
interesting question.
    The for-profit, and usually the larger for-profit, theme 
parks are very sensitive to ADA issues and have ADA-related 
departments to address those issues.
    The State of California has taken a very proactive role in 
making sure that they help the hard-of-hearing and the deaf 
community by adding captioning on everything that they come out 
with.
    I think that what I have seen on the Federal side is a 
general interest, meetings like today, for it. I think what the 
one thing is, is the lack of understanding that technology 
exists today to make this accessible for all. One of the tenets 
of the National Parks is to provide interpretation so, today, 
there are tools like my product that are available to add it in 
for those who are hard-of-hearing, deaf, and visually impaired. 
This is applicable in multiple markets, and there are other 
vendors who do something similar like this.
    So I think, in answer to your question, everyone is moving 
in the same path. What I hear from, and I can cite one guy in 
specific, the Dallas Zoo; what they are looking for is someone 
to come up and say, ``This is a blueprint on how to do it,'' 
and they want somebody to say, ``Tell me what I can do to help 
meet those ADA guidelines, and that is what is missing out 
there is, if you do this, this, this, this.''
    I will tell you, when we came up with this product, we 
struggled, from a technical perspective, as to how big of a 
font does the captioning need to be? Do we put sign language 
and audio at the same time? There were no standards out there 
for us to follow, so we took a guess and came up with what we 
thought was best. So I hope that helps to answer your question.
    Mr. Grijalva. Sir?
    Mr. Startzell. Yes, Mr. Chairman. I guess, in terms of 
innovation, I am sure that that is occurring on both the 
private and public sector sides. Perhaps the greater issue is 
how effectively we are sharing that information.
    Perhaps one issue that might be worth exploring among the 
Federal land managing agencies and the Access Board is, how can 
we do a better job telling our stories about adaptations that 
have worked and some of the technologies associated with those?
    The other way I think I would respond to that question is, 
as Mr. Holt noted a moment ago, I am also encouraged to see 
more of a can-do attitude, particularly in the last six or 
eight years.
    Where I think many of us, and I include my own organization 
in this, are perhaps falling down a little bit is in not doing 
a more effective job of actually telling visitors where 
opportunities exist.
    We have devoted a fair amount of energy to developing some 
accessible segments, and yet there is nowhere on our website, 
for example, where a person who is interested in finding that 
opportunity can learn about it. They might learn about it if 
they happen to call some of our visitor services staff, but, 
otherwise, you know, and I suspect that is true among the 
agencies as well.
    We could all do a better job of letting people know where 
opportunities exist and what conditions they are likely to 
encounter so they can make informed judgments about whether 
they can use a particular segment of a trail or a facility or 
what have you.
    Mr. Grijalva. Thank you. Mr. Pearce, any questions to 
follow?
    Mr. Pearce of New Mexico. Well, Mr. Chairman, with your 
permission, we have a lot of people in the audience today that 
might have a comment, and, believe me, we both need to be out 
of here in just about four or five minutes, but, with your 
permission, Mr. Chairman, if there are one or two people here 
with accessibility problems that would like to make a comment 
from the audience, can we accept that? Is there anyone here?
    I do not have any more questions for the panel.
    Mr. Grijalva. Let me suggest, Mr. Pearce, in order to wrap 
this panel up, we will leave the record open so that if anyone 
that is in the audience would like to submit anything in 
writing, we would be more than glad to accept it.
    Mr. Pearce of New Mexico. Sounds good. All right, Mr. 
Chairman. Thank you. It has been a great hearing.
    Mr. Grijalva. Thank you very much, and let me thank this 
panel and the previous panel.
    I really like the way that Congressman Holt spoke to this 
issue in his statement, talking about that we do not have 
categories of citizenship in this country. That applies to the 
accessibility to our great and precious public lands.
    I look forward to working with the agencies and with the 
outside agencies as well to look at issues of resources, look 
at issues of personnel training, look at issues of outreach, 
and look at issues of information sharing.
    I think those, to me, were points all along this 
conversation we had today, and no one is opposed to the 
implementation of the rule. I think the issue today was, how do 
you expedite, how do you assure the resources, and, in the 
process of retrofitting, how do you assure the resources?
    So I want to thank you for that today, and the meeting is 
adjourned.
    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
